Office of Inspector General

                  National railroad passenger corporation h Office of Inspector General




                                                                                               The OIG’s
                                                                                              mission is to
                                                                                             detect fraud,
                                                                                                 waste,
                                                                                            and misconduct
                                                                                          involving Amtrak’s
                                                                                               programs
                                                                                            and personnel,
                                                                                                 and to
                                                                                          promote economy
                                                                                             and efficiency
                                                                                               in Amtrak
                                                                                              operations.




         Semiannual Report to Congress
                        4/01/09 – 9/30/09




                                                                                              Office of
                                                                                          Inspector General
                                                                                                  1
                                                            Table of Contents




The Office of Inspector General’s Vision, Mission and Guiding Principles	   5

Transmittal Letter	                                                         6

Amtrak Profile	                                                             8

Office of Inspector General Profile	                                        9

Congressional Issues	                                                       10

Significant Activities:	
    Audits	                                                                 11
    Office of Investigations	                                               19
    Inspections and Evaluations	                                            26

Performance Measures	                                                       29

Appendices	                                                                 30

Reporting Requirement Index	                                                37




                                                                                Office of
                                                                            Inspector General
                                                                                    3
Office of Inspector General                                                                Office of Inspector General




                 The OIG Vision                                                 The OIG Mission

The Office of Inspector General (OIG) strives to provide        The OIG will conduct and supervise independent
Amtrak’s employees, its customers, the public, and              and objective audits, inspections, evaluations, and
the Congress with the highest quality service and               investigations relating to agency programs and
programs through vigilance, timely action, accuracy,            operations; promote economy, effectiveness and
and an overall commitment to excellence across the              efficiency within the agency; prevent and detect fraud,
broad range of OIG responsibilities.                            waste, and abuse in agency programs and operations;
                                                                                                                               The OIG’s
                                                                review security and safety policies and programs,
                                                                                                                              mission is to
                                                                and, review and make recommendations regarding               detect fraud,
                                                                existing and proposed legislation and regulations                waste,
                                                                                                                            and misconduct
                                                                relating to Amtrak’s programs and operations.
                                                                                                                          involving Amtrak’s
                                                                                                                               programs
                                                                                                                            and personnel,
                                                                                                                                 and to
                              The Inspector General’s Guiding Principles
                                                                                                                          promote economy
                                                                                                                             and efficiency
                                   Amtrak’s Office of Inspector General (OIG) will:
                                                                                                                               in Amtrak
H	Work with Amtrak’s chairman, the board of directors, and the Congress to improve program management.                        operations.

H	Maximize the positive impact and ensure the independence and objectivity of the OIG audits, investigations,
  inspections, and evaluations, and other reviews.
H	Use OIG audits, investigations, inspections, and evaluation, and other reviews to improve integrity and recommend
  changes to prevent fraud, waste and abuse.
H	Be innovative and question existing procedures and suggest improvements.
H	Build relationships with program managers based on a shared commitment to improving program operations
  and effectiveness.
H	Strive to improve the quality and efficacy of reports and recommendations.




                                                                                                                              Office of
                                                                                                                          Inspector General
                                                                                                                                  5
    Letter to the Board of Directors


                                                                           NATIONAL RAILROAD PASSENGER CORPORATION
                                                                                Office of Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




                    Septermber 30, 2009
                    Honorable Thomas Carper
                    Chairman
                    Amtrak Board of Directors

                    Dear Mr. Chairman:

                    On behalf of the Amtrak Office of Inspector General (OIG), I am pleased to present this Semiannual Report to
                    Congress. The OIG Report highlights significant audits, evaluations, and investigations for the six-month period
                    ending March 31, 2009.

                    It is the OIG’s responsibility to assist the Board and management in making improvements in Amtrak’s core business
                    operations which will improve the safety, reliability, and effectiveness of Amtrak services to the traveling public.
                    The current semiannual report identifies some of the recent recommendations that the OIG has made which have
                    resulted in cost savings, improved management policies and procedures, improved revenues, less cost, and more
                    efficient and effective business processes.

                    In executing its FY 2009 audit plans, the OIG continued its reviews of Amtrak’s procurement operations, payments
                    and billings to vendors providing services to Amtrak, and the associated internal controls for physical inventory. I
                    would like to call your to your attention two of the areas from the Audit group. Audits documented:

                       • $102,602,866 in billable retroactive labor costs that were incurred for Amtrak labor performing reimbursable
                       services for commuter services, state supported trains (403b) and various other individual and corporation force
                       account projects.

                       • Substantial savings or questions costs concerning the Thames River Project of $193,306.

                    OIG investigators and special agents opened 85 new cases and closed 84 cases during the reporting period; 331
                    investigations remain active as of September 30.

                    The OIG obtained four criminal indictments, and five criminal convictions/pleas; 20 other cases are pending
                    prosecutorial review. As you will see in the detailed reports, the casework continues to reflect the need for Amtrak
                    to protect better its passenger revenues, and the OIG is working with management to improve controls over the
                    $1.4 billion revenue stream.

                    The OIG Inspections and Evaluations group is continuing to facilitate numerous initiatives to improve the reliability
                    and availability of Amtrak’s rolling stock (passenger cars and locomotives). I would especially call your attention
                    to the OIG initiated company-wide evaluation of how Amtrak manages its human capital. The team evaluated
                    how well Amtrak identifies its manpower needs and then recruits, hires, develops and retains the individuals with
                    the skills needed to accomplish Amtrak’s mission and strategic goals. The resulting report suggests that if the OIG
                    recommendations are implemented a potential savings of between $23 million and $50 million could be realized.

    Office of
Inspector General
        6
Honorable Thomas Carper
September 30, 2009
Page 2




While continuing to conduct its normal oversight of Amtrak’s programs and operations for this Fiscal Year, the OIG,
like Amtrak, has had to rapidly make new plans to accommodate Amtrak’s inclusion in the American Recovery and
Investment Act of 2009 (ARRA). Under ARRA, Amtrak will be receiving almost $1.3 billion over the next two years
to initiate and accelerate work on the railroad, which will create jobs and further the statutory goals and objectives
of intercity passenger rail services. The OIG has been provided $5 million to oversee the stimulus spending and to
report independently on compliance with the goals of ARRA.

As the OIG has previously written, ARRA represents a significant opportunity for Amtrak to accelerate capital
work in a number of key areas, including badly needed investments in track, bridges, facilities, and passenger
cars and locomotives. Amtrak’s current plans are to spend about 66 percent of stimulus dollars on infrastructure
and engineering projects, 15 percent on security and life-safety projects, 11 percent on Amtrak’s fleet, and the
balance on information technology, finance, and other support functions. The OIG will work to ensure that Amtrak
uses stimulus funds in a way which complies fully with the transparency and accountability requirements of the
Recovery Act and which furthers the Board’s policy directives to improve Amtrak’s programs and operations.

Since the announcement Amtrak was to receive $1.3 billion in stimulus funds and an additional $5 million for the
Office of Inspector General, the OIG has hired a new Assistant Inspector General in charge of ARRA oversight and
reporting. Additional auditors have been hired in some cities and a few more positions are anticipated as Amtrak’s
projects are completed. The office has until September 30, 2013 to finish its work under the ARRA act.

Amtrak has embarked upon more than 250 projects all designed to speed Amtrak in to the future by implementing
new computer systems, upgrading infrastructure, such as bridges, tunnels, stations and tracks and modernizing
its equipment by overhauling and refurbishing existing locomotive and passenger cars. The OIG has completed
a review of the criteria used by Amtrak for justification of these projects. The OIG will continue to monitor the
projects through completion to ensure they comply with the grant provisions.

Given the considerable challenges and opportunities that have been presented to Amtrak over the past several
months, it is important that the OIG have a productive and effective working relationship with the Board of
Directors. We will work closely with you and the Board to ensure that the Office can accomplish its statutory
mission consistent with the best practices prevalent in the OIG community and in a way which contributes to safer,
more reliable, and more cost effective services for the traveling public.

Respectfully,


Lorraine Green
Interim Inspector General




                                                                                                                             Office of
                                                                                                                         Inspector General
                                                                                                                                 7
    Amtrak Profile



                    T
                            he National Railroad Passenger Corporation,             In terms of market-share, Amtrak serves 63 percent
                            “Amtrak,” is incorporated under the District of         of the combined airline-intercity rail market between
                            Columbia Business Corporation Act (D.C. Code §          Washington, D.C., and New York City. More than 800,000
                    29-301 et seq.) in accordance with the provisions of the        people commute every weekday on Amtrak infrastructure
                    Rail Passenger Service Act of 1970 (Public Law 91-518).         or on Amtrak-operated commuter trains around
                    Under the provisions of the Passenger Rail Investment           the country under contracts with state and regional
                    and Improvement Act of 2008 (Public Law 110-432; 49             commuter authorities. Amtrak employs about 18,400
                    U.S.C. § 24302), Amtrak’s Board of Directors reorganized        persons, of whom about 16,000 are agreement covered
                    and expanded to nine members.                                   employees. These employees work in on-board services,
                                                                                    maintenance of way, police, station and reservations
                    The company is operated and managed as a for-
                                                                                    services, and other support areas.
                    profit corporation providing intercity rail passenger
                    transportation as its principal business. Congress created      While ridership in the Northeast Corridor on Acela
                    Amtrak in 1970 to take over, and independently operate,         Express and Northeast Regional services did not keep
                    the nation’s intercity rail passenger services. Prior to this   pace with last year, several short-distance routes did
                    America’s private freight companies ran passenger rail as       achieve new highs, including the Chicago-St. Louis
                    required by Federal law. Those companies reported they          corridor (up 6 percent), the Harrisburg-Philadelphia-New
                    had operated their passenger rail services without profit       York Keystone Service (up 2.7 percent), the Raleigh-
                    for a decade or more. With this in mind, when Amtrak            Charlotte Piedmont (up 3.8 percent) and the Washington-
                    began service on May 1, 1971, more than half of the rail        St. Albans Vermonter (up 1.9 percent). Elsewhere on the
                    passenger routes then operated by the freight railroad          Amtrak national network, the Los Angeles-Seattle Coast
                    companies were eliminated.                                      Starlight ridership was up 22.3 percent from the previous
                                                                                    fiscal year, recovering from a 15-week service disruption
                    During fiscal year (FY) 2009 Amtrak carried approximately
                                                                                    in 2008 that closed a portion of the route in northern
                    27.2 million passengers on up to 315 daily intercity
                                                                                    California.
                    trains on more than 21,100 route miles serving 513
                    communities in 46 states, the District of Columbia, and         Other long distance trains that posted gains in FY 2009
                    three Canadian provinces.                                       versus FY 2008 include the Los Angeles-New Orleans
                                                                                    Sunset Limited route (up 9.8 percent), the San Antonio-
                                                                                    Chicago Texas Eagle (up 3.6 percent) and the New York-
                                                                                    Miami Silver Meteor (up 3.4 percent) and Silver Star (up
                                                                                    1.1 percent). While other segments posted declines,
                                                                                    the 15 long distance trains as a group experienced an
                                                                                    increase (up 0.7 percent), highlighting their role in many
                                                                                    cases as essential public transportation and reflecting
                                                                                    improved on-time performance in most instances.
                                                                                    Amtrak owns the right-of-way of more than 363
                                                                                    route miles in the Northeast Corridor (NEC; including
                                                                                    Washington, DC-New York City-Boston, Philadelphia-
                                                                                    Harrisburg, and New Haven, CT-Springfield, MA) and 97
                                                                                    miles in Michigan. Amtrak owns 105 station facilities,
                                                                                    and is responsible for the upkeep and maintenance of
                                                                                    an additional 181 station facilities and 411 platforms.
                                                                                    Amtrak owns 17 tunnels and 1,186 bridges.
                                                                                    Amtrak owns most of the maintenance and repair
                                                                                    facilities for its fleet of about 2,600 cars and locomotives.
                                                                                    Outside the NEC, Amtrak contracts with freight railroads
                                                                                    for the right to operate over their tracks. The host freight
                                                                                    railroads are responsible for the condition of their tracks
                                                                                    and for the coordination of all railroad traffic.




    Office of
Inspector General
        8
                                                                          Office of Inspector General Profile



A
          mtrak’s Office of Inspector General (OIG) was       cash and credit card purchases for transportation and
          established as a statutory entity on April 1,       food services on board Amtrak trains.
          1989, in accordance with the 1988 amendments
                                                              Legal Counsel is responsible for providing legal assistance
(P.L. 100-504) to the Inspector General Act of 1978 (P.L.
                                                              and advice to the Inspector General, Audits, Inspections
95-452; 5 U.S.C. Appendix 3). The OIG is an independent
                                                              and Evaluations, and Investigations. Counsel provides
and objective entity within Amtrak whose mission is to
                                                              legal and investigatory directions to Investigations,
detect fraud, waste, and misconduct involving Amtrak’s
                                                              coordinates with outside attorneys including local and
programs and personnel; to promote economy and
                                                              federal agencies and law enforcement attorneys, and
efficiency in Amtrak operations; and, to keep Congress
                                                              appears in court on behalf of the OIG and its employees.
and the Amtrak Board of Directors fully informed about
problems and deficiencies, and the necessity for, and
                                                              Inspections
                                                              Inspections and
                                                                          and Evaluations:
                                                                              Evaluations:
progress of, corrective action.
The OIG investigates allegations of violations of criminal    Inspections and Evaluations is a hybrid unit whose
and civil law, regulations, and ethical standards arising     staff have specialized skills in engineering, safety,
from the conduct of Amtrak employees in performing            labor/employee relations, mechanical maintenance
their work. The OIG audits, investigates, inspects, and       operations, strategic planning, and finance. This group
evaluates Amtrak operations, policies, and procedures,        conducts targeted inspections and evaluations of Amtrak
and assists management in promoting integrity, economy,       programs, providing assistance to managers in their
efficiency, and effectiveness.                                efforts to determine the feasibility of new initiatives and
                                                              the effectiveness of existing operating methodologies.
Amtrak’s Office of Inspector General is led by the interim
inspector general, Lorraine Green. The OIG consists           The inspection and evaluations process they utilize,
of four groups: Audits; Investigations; Inspections and       whether requested or mandated, consists of independent
Evaluations; and, Management and Policy. Audits is            studies and analytical reviews that often serve as the
headed by Gary E. Glowacki; Inspections and Evaluations is    cornerstone for strategies to improve cost efficiency and
headed by Calvin Evans; Investigations, and legal counsel,    effectiveness, and the overall quality of service delivery
is headed by Colin Carriere; and, Management and Policy       throughout Amtrak.
is headed by Bret Coulson. The OIG has field offices in
Washington, DC, Baltimore, Wilmington, Philadelphia,          Management
                                                              Management and
                                                                         and Policy:
                                                                             Policy:
New York, Boston, Chicago, and Los Angeles.
                                                              Management and Policy provides mission and
Audits:                                                       administrative support services to the OIG by
                                                              managing: budget formulation and execution; policy
Audits is responsible for conducting independent              development; training, personnel security; dissemination
reviews of Amtrak’s internal controls and recommending        of OIG information; human resources; and OIG facilities.
improvements to better safeguard its assets; testing the      Management and Policy ensures performance quality
reliability of financial reporting and providing accounting   and compliance with current and emerging government
counsel over company operations; reviewing information        regulations, directives, and mandates. The office is the
technology programs and information security;                 primary liaison with the Government Accountability
reviewing procurements and material acquisitions for          Office, and other government departments and agencies.
appropriateness of cost, pricing, and compliance with         Management and Policy has primary responsibility for
applicable grant and/or contract terms and conditions;        Amtrak’s security oversight; and, works closely with,
and, monitoring compliance with laws and regulations.         and provides oversight on, the policy, programs, and
                                                              procedures for Amtrak’s Office of Security Strategy and
Investigations
Investigations and
               and Legal
                   Legal Counsel:
                         Counsel:                             Special Operations, and the Amtrak Police Department.

Investigations is responsible for investigating various
types of fraud and abuse particularly allegations
of financial wrongdoings, kickbacks, construction
irregularities, bribery, and false claims; performing
reviews of Amtrak’s safety and security programs;
recommending to the company better internal controls
to prevent fraud and abuse; and, reporting violations of
law to the Attorney General and prosecutors. The group
is charged with reviewing and safeguarding Amtrak’s                                                                             Office of
                                                                                                                            Inspector General
                                                                                                                                    9
    Congressional Issues




                                                                                 During the semiannual reporting period, the OIG
                    Legislation and Regulations Reviewed                         conducted oversight of Amtrak’s American Recovery
                                                                                 and Reinvestment Act of 2009 (ARRA) activities and
                    Section 4(a) of the Inspector General Act requires the       expenditures. As required by ARRA, the OIG has filed
                    Inspector General to review existing and proposed            monthly reports of the OIG’s ARRA financial expenditures
                    legislation and regulations relating to Amtrak’s             and oversight activity with www.Recovery.gov, the website
                    programs and operations and to make recommendations          of the Recovery Accountability and Transparency Board.
                    concerning their impact. The OIG uses results from its
                                                                                 The Inspector General Reform Act of 2008 established an
                    audits, inspections and evaluations, investigations,
                                                                                 independent budget submittal process for the OIG. The
                    and legislative experiences as the basis for its
                                                                                 Chairman of the Amtrak Board of Directors submitted
                    recommendations to Congress. During the reporting
                                                                                 the OIG’s Fiscal Year 2011 budget estimate and request
                    period, the OIG reviewed legislation, regulations, policy,
                                                                                 to the Office of Management and Budget on September
                    and procedures that could affect Amtrak and provided
                                                                                 14, 2009. The OIG’s annual budget estimate and request
                    comments both internally within, and to, the relevant
                                                                                 are submitted to Congress as part of Amtrak’s annual
                    Congressional committees and staff.
                                                                                 grant and legislative request.
                                                                                 The specific legislation reviewed is found in Appendix 5.




    Office of
Inspector General
       10
                                                                                       Significant Activities: Audits


Procurement
Procurement and
            and Material
                Material                                        Food and Beverage Transition Review
Management
Management Issues
            Issues                                              Inventory controls need to be improved
                                                                Audit Report 202-2009 – Issued 6/17/2009
Consulting Services for the NEC/ACELA                           The OIG performed a review of Amtrak Food and Beverage
Improvement Program                                             inventory transition from Gate Gourmet, Inc. (GGI) to
Audit Report 201-2008 – Issued 5/13/2009                        Aramark, Inc. The OIG primary objective was to observe
                                                                the physical inventory transition from GGI to Aramark,
Amtrak issued Purchase Order S-046-72239 to Celerant
                                                                which took place between November 30, 2008 through
Consulting Inc (Celerant) to perform consulting services
                                                                December 21, 2008. The OIG observed the transition
for the NEC/ACELA Improvement Program totaling
                                                                of inventories from GGI to Aramark for Amtrak’s main
$1,437,550. The purpose of the audit was to determine
                                                                commissaries which are located in Boston, New York,
the accuracy and acceptability of the cost and pricing
                                                                Washington, Sanford, Miami, New Orleans, Chicago,
data shown on Celerant’s cost proposal or other data
                                                                Oakland, Los Angeles, and Seattle.
submitted for use in verifying the weekly billing labor
rate ($11,000 per consultant week) for a sole source            The audit disclosed that the inventories were conducted
contract and their applicable travel expenses. The audit        in accordance with management instructions. Based on
disclosed that the documentation provided by Celerant           the results of the reconcilement of the EATEC Physical
adequately supported the accuracy of the weekly billing         Inventory Quantity on Hand (QOH) Before and After
labor rate and the travel expenses.                             reports, the OIG determined that all 10 commissaries
                                                                visited had high gross variances, with Chicago having
AmPlan Eligibility Review                                       the highest gross variance - 216.24 percent.
Audit Report 103-2009 – Issued 9/30/2009
                                                                The OIG noted that some of the items on the QOH
The OIG audited the health and welfare benefits                 Before report had negative counts and negative total
enrollment process for its agreement-covered employees.         dollar values, and after GGI adjustments, the inventory
The audit objective was to determine whether eligible           values were positive. The high gross variances are largely
dependents of Amtrak employees are receiving health             attributable to the lack of accurate inventory accounting
and welfare benefits and if adequate internal controls          from trains stripped rather than an actual loss of goods.
are in place to ensure accuracy and to detect and prevent
                                                                Additionally, the Managed Services Provider was still
unnecessary expenditures by Amtrak for ineligible
                                                                was taking an inordinate amount of time to finish
dependents.
                                                                the inventory reconcilement. This practice allows the
The OIG found that Amtrak’s employees’ dependents are           Managed Services Provider too much time to arbitrarily
not verified to ensure eligibility for the health and welfare   adjust shrinkage differences. Amtrak Managers of
benefits. The OIG discovered that United Healthcare,            Contract Food and Beverage should be required to have
Amtrak’s third party administrator (TPA), does not              more of a presence when the inventory process begins
require proof of student status for dependent children,         and ends.
identified as, full-time college students, between the ages
                                                                Management Response:
of 10 and 25. United Healthcare only requires verbal
                                                                Management agreed and has begun implementation of
acknowledgement from the employee rather than the
                                                                the OIG recommendation.
submission of actual proof of student’s status. Amtrak’s
policy states: “A dependent child that is a full-time
                                                                Accounting and Reporting Procedure
student needs proof of student status and this must be
                                                                Issues
provided to the TPA each semester to continue healthcare
coverage.” Due to the severity of the deficiencies found
in Amtrak’s Human Resources verification and dependent          Amtrak Safety Audit Program Review
eligibility process, the OIG issued a quick reaction report     Reporting controls need improvement
to correct the internal control deficiencies.                   Audit Report 218-2008 – Issued 9/29/2009
Management Response:                                            The OIG review disclosed that Amtrak Management lacks
Management agreed the verification of dependent                 an adequate reporting system to effectively identify the
eligibility process will be developed and implemented.          date each safety finding is actually corrected. Responsible
                                                                Amtrak Officials (RAO) self-correct and report the
                                                                remediation of safety audit findings to Safety Audit, and
                                                                the Safety Audit Program does not require objective or
                                                                follow-up verifications of the corrective actions reported.
                                                                Instead, the Safety Audit Group relies on RAOs to notify          Office of
                                                                                                                              Inspector General
                                                                                                                                      11
    Significant Activities: Audits


                    Safety Audit when and whether findings are corrected           The OIG performed an audit of the Amtrak lease for the
                    and available for closure. Potentially, corrective actions     property located at 525 W. Van Buren St., Chicago, Illinois
                    could be reported to Safety Audit and not actually             (Chicago Property) and contracted with Lease Audit
                    implemented, or the actions taken could be insufficient        and Advisory Services, Inc. (LAAS) to perform specific
                    to correct the findings.                                       services in connection with the audit. The objective of
                                                                                   this audit was to determine whether Operating Expense
                    Management Response:
                                                                                   Statements submitted to Amtrak are in compliance
                    Management response was still pending at the end of
                                                                                   with the provisions of the Lease Agreement with the
                    this reporting period.
                                                                                   Landlord.
                    Contract Audits                                                The audit required LAAS to perform the following services:
                                                                                   an analysis to determine whether rental escalation
                                                                                   statements are calculated correctly in accordance with
                    Unbilled Reimbursable Retroactive Wages
                                                                                   provisions of lease agreement(s) between Amtrak and the
                    $102,602,866 not invoiced for reimbursable retroactive
                                                                                   landlord; identifying any rental overcharges billed by the
                    wage increases.
                                                                                   landlord ; assisting OIG in recovering any overcharges;
                    Audit Report 207-2008 – Issued 5/13/2009
                                                                                   negotiating any future rental payments; examining
                    In January 2008, Amtrak signed labor agreements with           annual escalation billings to ensure that all expenses
                    13 unions (23 agreements) which awarded pay increases          are being billed in accordance with the initial settlement;
                    retroactive from July 2002 through June 2008. The OIG          and, performing follow-up audits as necessary.
                    formally notified Management that significant portions of
                                                                                   In its audit LAAS found that the Landlord for the Chicago
                    the retroactive labor wages were incurred in performing
                                                                                   Property was charging a management fee that was in
                    reimbursable contracts. A number of these contracts
                                                                                   excess of prevailing market conditions. The Landlord
                    contain specific provisions that allow Amtrak to invoice its
                                                                                   agreed to reduce the management fee to 3 percent for
                    customers for retroactive pay adjustments. Other contracts
                                                                                   the period 2005 through 2007 resulting in a credit due
                    are based in whole or in part on reimbursable costs.
                                                                                   Amtrak of $179,531. Amtrak’s share of the savings was
                    The audit documented $102,602,866 in billable                  $122,081. The future savings for FY 2008 to FY 2011 is
                    retroactive labor costs that were incurred for Amtrak          estimated to be $247,955.
                    labor performing reimbursable services for commuter
                                                                                   The OIG recommend that the overpayments should be
                    services, state supported trains (403b) and various other
                                                                                   recovered from the Landlord. And, the OIG recommend
                    individual and corporation force account projects. Of the
                                                                                   Amtrak Real Estate Development revisit its review
                    total reimbursable labor costs, $49,362,032 was incurred
                                                                                   procedures for monitoring Amtrak property leases
                    for force account projects, $36,407,325 was incurred for
                                                                                   and ensure they address compliance with the lease
                    commuter services, and $16,833,509 was incurred for
                                                                                   requirements and consistency with industry standards.
                    state supported trains. Amtrak has contractual rights
                    concerning labor expenses which should be enforced.
                                                                                   Attleboro Pawtucket Amendments Review
                    Moreover, Amtrak is prohibited by law from subsidizing
                                                                                   $42,128,287 of Amtrak funds was used to cross-subsidize
                    “operating losses of commuter rail passenger or rail
                                                                                   the MBTA
                    freight transportation” under 49 USC Section 24104(f)
                                                                                   Amtrak failed to identify $2,392,291 of increased MBTA
                    and Authorization of Appropriations statutes.
                                                                                   service costs
                    The OIG recommended that Management invoice the                Amtrak failed to bill $278,927 to the MBTA for its share
                    entire $102.6 million retroactive wage amounts for labor       of maintenance and equipment costs
                    costs incurred by Amtrak on behalf of its customers. OIG       Audit Report 205-2009 – Issued 9/30/2009
                    further recommended that the entire accounts receivable
                                                                                   The objectives of the OIG audit were to assess Amtrak’s
                    should be properly recorded, and any reductions in
                                                                                   compliance with the cost recovery terms of the Attleboro
                    customer liability should be properly written off.
                                                                                   Agreement and associated amendments. OIG reviewed
                    Management Response:                                           maintenance, capital, reimbursable and dispatching costs
                    Management response was still pending at the end of            related to the Attleboro Line that was incurred by Amtrak
                    this reporting period.                                         during the period July 1, 2003 through June 30, 2009.
                                                                                   OIG noted the following cost recovery related issues:
                    Chicago Lease Audit
                                                                                   H	OIG found that Amtrak subsidized the Massachusetts
                    Cost recovery of $122,081; future savings for FY 2008 to
                                                                                     Bay Transportation Authority (MBTA) an estimated
                    FY 2011 is estimated to be $247,955
                                                                                     $42,128,287 in Amtrak funds for the maintenance and
                    Audit Report 105-2009 – Issued 3/30/2009
    Office of                                                                        operation of the Attleboro Line Commuter Operations.
Inspector General
       12
                                                                                     Significant Activities: Audits


  Amtrak is prohibited from subsidizing losses of             conclusion that Amtrak is due a net decrease in the cost
  commuter rail passenger or freight transportation           of the modification in the amount of $7,638.
  under 49 USC Section 24104(f) and prohibited from
                                                              Management Response:
  cross-subsidizing commuter rail passenger or freight
                                                              Amtrak management agreed with the findings and
  transportation under 49 USC Section 24904.
                                                              Cianbro credited the project for the questioned $7,638.
H	OIG found that Amtrak failed to identify, calculate
  and bill an estimated $2,392,291 in increased               Thames River Bridge Project
  maintenance costs incurred as a result of a MBTA            Audit of Counterweight Extra Work Claim
  service increase. The Attleboro Agreement allows            Question Cost of $99,634
  Amtrak to be reimbursed for all increased operating         Audit Report 303-2009 – Issued 6/22/2009
  and maintenance costs resulting from MBTA service
                                                              The OIG completed an audit of Cianbro Construction
  increases.
                                                              Incorporated’s $1,810,950 claim for extra work
H	OIG found that Amtrak failed to bill MBTA an estimated      performed in removing the counterweight on the Thames
  $222,059 for its share of expenses at the Boston South      River Bridge in New London, Connecticut. The claim
  Station Centralized Electric and Traffic Control (CETC)     was submitted under contract number C-069-24978
  Facility. OIG found that Amtrak failed to bill $56,868      between Amtrak and Cianbro for the rehabilitation of the
  to the MBTA for Pawtucket, RI Layover Facility Usage        Thames River Bridge. Cianbro submitted the $1,810,950
  Fees.                                                       claim, dated July 23, 2008, for extra costs incurred to
                                                              remove the old counterweight from the bridge. Cianbro
The OIG reported that since an apparent cross-
                                                              stated that the extra costs incurred were the result of a
subsidization violates federal statutes, Amtrak needs to
                                                              “change condition,” from that which was disclosed in
consider substantially amending this agreement and/
                                                              the contract.
or enforcing terms in such a way as to avoid unbilled
or uncollected activities which benefit the MBTA. Due         The OIG audit objective was to determine if the cost
to the long history of late and non-payment by MBTA,          or pricing data submitted by Cianbro in support of the
Amtrak should consider not performing reimbursable            counterweight claim was accurate, complete, and current
work for this customer that has little or no joint benefit    as of the date of certification.
to Amtrak.
                                                              The results of the audit indicated that Cianbro’s submitted
Management Response:                                          cost or pricing data was not entirely accurate, complete,
Management response was still pending at the end of           or current. The OIG identified adjustments in the amount
this reporting period.                                        of $99,634 that should reduce the amount of the claim.

Thames River Bridge Project                                   Mueser Rutledge Consulting Engineers
Contract Modification C-0012PS Pier                           Subcontract under Contract C-076-00870
Modifications                                                 Thames River Bridge Span Replacement
Cost recovery of $7,638                                       Audit Report 307-2007 – Issued 8/26/2009
Audit Report 302-2009 – Issued 6/3/2009
                                                              The Office of Inspector General audited Mueser
The Office of Audits completed an audit of modification       Rutledge’s (MR) invoices for work on the Thames River
C-0012-PS to contract number C-069-24978 between              project. The Thames River project is the replacement of
Amtrak and Cianbro Construction Corporation (Cianbro).        the moveable span on the Thames River Bridge in New
Cianbro’s contract was entered into to rehabilitate           London, Connecticut. MR was a subcontractor on this
the Thames River Bridge in New London, Connecticut.           project hired to develop a stabilization plan for two of
Amtrak executed the modification to install additional        the existing bridge piers that moved during construction.
reinforcing steel and strengthen concrete on two bridge       MR submitted invoices totaling $1,446,712, as of My 29,
piers. The modification was executed for a not-to-exceed      2009, for engineering consulting services.
amount of $2,080,198.33.
                                                              The audit objective was to determine that costs
The audit objective was to determine if the cost or pricing   submitted by MR were in accordance with contractual
data submitted by Cianbro in support of the modification      terms and supported by detailed books and records. The
cost was accurate, complete, and current. The results         OIG reviewed the qualifications of engineers assigned
of the review indicated that Cianbro’s submitted cost         to the project to determine that their educational levels
or pricing data was not entirely accurate, complete, or       and experience were in accordance with contractual
current. The OIG identified adjustments that increased        requirements.
and decreased Cianbro’s submitted costs resulting in a                                                                          Office of
                                                                                                                            Inspector General
                                                                                                                                   13
    Significant Activities: Audits


                    The OIG found that the costs presented in MR’s invoices     Station
                                                                                Station Audits
                                                                                        Audits
                    were fully supported by detailed payroll records, time
                    sheets, and travel vouchers and were in accordance with
                                                                                Baltimore Station Audit
                    contractual terms.
                                                                                Audit Report 211-2009 – Issued 7/9/2009
                    Thames River Bridge Project                                 The OIG review disclosed that internal controls needed to
                    Grouting Program Contract Modifications                     be made in the Baggage Room and processing controls
                    Question Cost of $86,034                                    needed improvement for station expenses, expenses
                    Audit Report 308-2007 – Issued 6/4/2009                     for the inconvenience of passengers, documentation
                                                                                supporting Over and Short Ledgers, and the performance
                    The Office of Audits completed an audit of contract
                                                                                of Mini-Audits.
                    modification costs submitted by Cianbro Construction
                    Incorporated for pier grouting activities on the Thames     Management Response:
                    River Bridge, Span Replacement Project in New London,       Station management addressed all of the concerns noted
                    Connecticut. Cianbro is the prime construction contractor   in the report prior to the issuance date.
                    on this project. Construction contract C-069-24978,
                    between Amtrak and Cianbro, was modified in order to        Baltimore Station Audit – Facility
                    stabilize two bridge piers that began to move during        Audit Report 213-2009 – Issued 8/6/2009
                    construction. Cianbro’s certified grouting program costs,
                                                                                The OIG conducted an audit of the Baltimore Station
                    for the cost plus modifications totaled $10,996,068. The
                                                                                Ticket Office and Baggage Room, the OIG observed that
                    objective of this audit was to determine whether the cost
                                                                                exterior improvements needed to be made to the station
                    or pricing data submitted by Cianbro in support of the
                                                                                and some general maintenance issues needed to be
                    grouting program was accurate, complete, and current.
                                                                                addressed.
                    The OIG started the audit in the spring of 2008 by
                                                                                Management Response:
                    reviewing Cianbro’s first submission of grouting
                                                                                Amtrak’s Engineering Department corrected the issues
                    program costs totaling $10,938,565. The OIG then
                                                                                that were cited in the report.
                    questioned $376,209 of the original submission due
                    to overstated subcontractor material costs, incorrect
                                                                                Denver Station Audit
                    subcontractor equipment rates, and incorrectly allocated
                                                                                Audit Report 402-2009 – Issued 9/29/2009
                    direct and indirect labor charges. Cianbro agreed to an
                    initial reduction of $290,175 which was removed from        The OIG audited the Denver, CO ticket office. The purpose
                    Cianbro’s final certification of grouting program costs.    of the review was to: verify assigned working funds,
                                                                                ticket stock and other assets; verify station sales and
                    The OIG completed the audit in February 2009 after
                                                                                other activities; and determine compliance with daily
                    Cianbro submitted its final certified costs for the
                                                                                station accounting procedures and evaluate safeguards
                    grouting program in the amount of $10,996,068. The
                                                                                over assets.
                    results of the audit of Cianbro’s final certified costs
                    indicated that the $10,996,068 included $86,034,            The OIG could not verify all assigned working funds at
                    which the OIG had previously questioned. The $86,034        the ticket office. Of 13 Seller’s Banks; one was missing,
                    represents the amount of subcontractor overbilling          another was inaccessible, and nine others did not contain
                    caused by for incorrect equipment rates. As a result,       the dollar amount issued. Ticket stock, station sales and
                    the OIG recommended that Amtrak seek an additional          other activities were verified.
                    price reduction for the grouting program in the amount
                                                                                Overall, the OIG found ticket agents were not always
                    of $86,034.
                                                                                in compliance with Amtrak’s policies and procedures.
                    Management response:                                        Specifically:
                    Management disagreed with the recommended $86,034
                                                                                H	Ticket agents have not fulfilled their responsibility to
                    reduction stating that contract clauses in the prime
                                                                                  protect and secure Amtrak funds.
                    contract between Cianbro and Amtrak would not flow
                    down to Cianbro’s subcontractor since the subcontractor     H	One ticket agent was using the common working fund
                    was not involved when the contract was signed by              on a daily basis, which is not permitted.
                    Amtrak and Cianbro.
                                                                                H	Duplicate keys to cash drawers were not sealed and
                    OIG Response:                                                 maintained in the safe as required.
                    The OIG disagrees with management’s position and
                    believe that the finding should stand.
    Office of
Inspector General
       14
                                                                                       Significant Activities: Audits


H	Ticket agents were not aware of their responsibility to        the amount of an upgrade on the original cancelled
  report late conductor remittances, thus did not report         ticket.
  them in accordance with procedures.
                                                               H	The Control Logs for manually issued tickets needs to be
H	Refund and exchange tickets were not die-stamped,              completed properly and the Station’s copy of the ticket
  some were not properly marked for cancellation, and            should be maintained with the Lead Ticket Agent.
  most of the exchange tickets did not contain the new
                                                               H	Training is needed for Ticket Agents regarding the
  ticket number and value.
                                                                 proper reporting of manually issued tickets for
The OIG identified control weaknesses with regards to            Group Travel transactions, and the accounting of the
general monitoring of the station activities by the District     transaction in the Automated Station Accounting
Manager. Specifically we found:                                  Program (ASAP) and in the functional usage of ASAP.
H	The District Manager failed to ensure the working fund       H	Passenger addresses should be recorded on refund
  at the station was maintained at the authorized level          documents.
  by counting the entire working fund during the mini-
                                                               H	Maintenance is needed to correct excessive rust to the
  audits.
                                                                 sides of escalators that service the tracks.
H	Station management has not taken action to coordinate
                                                               Management Response:
  employees’ schedules to avoid paying unnecessary
                                                               Station management agreed with the observations and
  overtime due to flex time.
                                                               provided the OIG with a corrective action plan that
H	The District Manager failed to monitor and review all        addressed all of the observations.
  elements of the station operations during the mini-
  audit; i.e., did not count the entire working fund in        Glenwood Springs Station Audit
  the safe or review all required documents necessary to       Audit Report 403-2009 – Issued 9/29/0909
  answer the mini-audit questions.
                                                               The OIG conducted an audit of the Glenwood Springs,
H	The District Manager(s) did not monitor shortages            CO ticket office. The purpose of the review was to: verify
  closely enough to identify a suspicious pattern of           assigned working funds, ticket stock and other assets;
  shortages occurring over a two year period.                  verify station sales and other activities; and, to determine
                                                               compliance with daily station accounting procedures and
The OIG made detailed recommendations to address
                                                               evaluate safeguards over assets.
each finding.
                                                               The review found that assigned working funds, ticket
Management Response:
                                                               stock, station sales and other activities were verified
Management has agreed with the findings but
                                                               and the station was in compliance with Amtrak’s policies
has not provided its action plan to address each
                                                               and daily station accounting procedures. However, the
recommendation.
                                                               OIG found that management over the station operations
                                                               can improve in the following areas: safeguarding of
Route 128 Station Audit
                                                               assets, performance of mini-audits, and approval of
Audit Report 305-2009 – Issued 8/21/2009
                                                               miscellaneous expenses.
The Office of Inspector General performed a station
                                                               While evaluating safeguards over assets, auditors
audit of the Route 128 Station Ticket Office located in
                                                               observed that ticket agents count station cash in a room
Westwood, Massachusetts. The purpose of the review
                                                               that is within public view, which provides inadequate
was to: test for compliance with station accounting and
                                                               security over counting cash and unnecessarily exposes
reporting procedures; verify assigned working funds,
                                                               Amtrak funds and employees to a safety/security risk.
ticket stock and other assets; evaluate safeguards over
assets; and, appraise the efficiency of station operations.    In addition, mini-audits, which are a management control
The audit indicated that the Route 128 Station ticket          to detect deviations from policy, were not conducted in
office is in compliance with station accounting and            accordance with procedures. The mini-audits for this
reporting procedures. Therefore, the report did not            station, as currently performed by the District Manager,
contain any formal audit findings. However, the OIG            are not functioning as intended; i.e., as a reliable
made the following observations which were reported            monitoring tool to ensure the station is in compliance
for management’s information:                                  with policies and procedures.
H	Die stamp imprints were not clearly displayed on             Lastly, there was no evidence that the miscellaneous
  tickets (ink or cleaning issue).                             expenses had been approved by the District Manager
                                                               since he did not sign the Form NRPC-2382, Miscellaneous
H	Exchange ticket transactions do not always show                                                                                 Office of
                                                                                                                              Inspector General
                                                                                                                                     15
    Significant Activities: Audits


                    Station Expense Report, as required. Furthermore,           H	Recovery Act section that includes a full text of the
                    miscellaneous expenses were not reported in the month         law, role of OIG in oversight of the ARRA funds,
                    in which the expenses were incurred.                          whistleblower protection under the act, and a separate
                                                                                  Tip Hotline Form.
                    The OIG recommended that the District Manager or
                    Superintendent immediately install a curtain or window      H	A separate section in the Reading Room for Recovery
                    covering in the room containing the safe to provide the       Act Financials and Reports.
                    ticket agents with a place to count the cash that has
                                                                                H	Technical enhancements such as virtual directory
                    a reasonable level of security, out of public view and
                                                                                  redirection for “Recovery” keyword and RSS feed to
                    that the District Manager conduct sufficient reviews at
                                                                                  electronically transmit ARRA related documents to
                    the stations by taking the time necessary to accurately
                                                                                  Recovery.gov site.
                    complete each question on the mini-audit.
                                                                                The OIG is currently working to convert its public website
                    Information Technology                                      Amtrakoig.com into Amtrakoig.gov site, and migrate to
                                                                                a new web hosting service. This along with a planned
                                                                                implementation to an externally hosted .gov email
                    New OIG Website Successfully Launched to
                                                                                service, should be completed during the next semiannual
                    Comply with Inspector General Reform Act and
                                                                                reporting cycle.
                    American Recovery and Reinvestment Act.
                    Cost savings of approximately $250,000
                                                                                Significant Progress Made in the
                    Under the Inspector General Reform Act of 2008 (IG
                                                                                Implementation of ACL CCM for Purchase to
                    Reform Act) enacted on October 14, 2008, Amtrak’s
                                                                                Payment Process
                    Office of Inspector General was required to implement
                                                                                In recent past, the OIG purchased ACL continuous
                    a new website within six months that would meet a
                                                                                controls monitoring (CCM) solution for Purchase-to-
                    number of key technical and publishing requirements.
                                                                                Payment (P2P) and Payroll processes. While the OIG
                    The OIG successfully launched its new OIG website that      has used the ACL software for more than ten years for
                    meets the following key technical requirements of the IG    targeted data mining and analysis on an ad hoc basis, the
                    Reform Act:                                                 CCM capability will allow us to perform data analytics
                                                                                on critical business information such as procurement and
                    H	Direct link from Amtrak.com homepage to the OIG
                                                                                payroll on a continuous basis.
                      website Amtrakoig.com.
                                                                                ACL CCM provides a mechanism to continuously audit
                    H	Reading Room to make OIG reports easily accessible
                                                                                and monitor internal control effectiveness of critical
                      to public.
                                                                                business processes by automatically applying pre-
                    H	Keyword search functionality.                             defined analytic tests against control parameters and
                                                                                business rules. These tests are effective in detecting
                    H	Secure and anonymous Tip Hotline Form for submission
                                                                                and preventing suspicious activity and non-compliant
                      of allegations.
                                                                                business transactions in a timely manner prior to the
                    H	Compliance with Section 508 of the Rehabilitation         financial loss and damage to the business becomes
                      Act that makes the website accessible to people with      widespread. It allows auditors to use the automated
                      disabilities.                                             means to provide independent assurance to Amtrak
                                                                                management and Board in the effectiveness of internal
                    It is important to note that the new website was
                                                                                controls and the integrity of the transactions underlying
                    implemented one month ahead of the legislative deadline
                                                                                business operations.
                    and at an estimated savings of $250,000 by utilizing the
                    internal resources instead of contracting out to design,    In 2009, the OIG initiated an audit project to implement
                    build and operate the website. To provide additional        the P2P module and assess key controls in Amtrak’s
                    safeguards, OIG website is hosted externally at a web       Purchase to Payment process. The OIG successfully
                    hosting service provider. And, the OIG finalized internal   completed the Requirements Definition Phase by working
                    process for publishing OIG reports and job openings to      effectively with Amtrak management from Procurement,
                    the website.                                                Materials Management, Finance and IT areas.
                    Subsequently, the OIG made the following upgrades to        The OIG configured the in-scope standard tests and
                    the public website to comply with the OMB guidelines        are now working on implementing custom tests. After
                    regarding American Recovery and Reinvestment Act of         testing is completed, the OIG will implement the P2P
                    2009 (ARRA):                                                module in the production environment.
    Office of
Inspector General
       16
                                                                                        Significant Activities: Audits


The OIG plans to implement the Payroll module next in           Rocla Concrete Ties
2010. Based on the experience and lessons learned from          Questioned costs of $1.3 million
these deployments, we will decide whether to implement          Audit Report 218-2005 – Response 4/14/2008
other modules such as Order-to-Cash, General Ledger,
                                                                Based on the terms contained within the Supplies
Travel and Entertainment Expense, and Purchasing Cards
                                                                contract dated June 2, 2003, Rocla over billed Amtrak
in the future.
                                                                approximately $1.3 million. Subsequent to our report,
                                                                Procurement improperly granted Rocla extraordinary
Provided Management Advice in Developing
                                                                contract relief for the questioned costs. Procurement than
Amtrak Enterprise Architecture
                                                                issued Purchase Order Number S-073-06014 totaling
The OIG actively participated in the Enterprise
                                                                $6,324,800 to replace 80,000 of defective concrete
Architecture Steering Committee by reviewing and
                                                                ties. OIG is currently performing an audit of the new
providing timely feedback on IT Enterprise Architecture
                                                                contract and will continue to monitor Management’s
(EA) deliverables. Amtrak senior executive leadership has
                                                                actions associated with the latest incidents of concrete
identified the creation of an IT Strategic Plan as a critical
                                                                tie failures.
goal to coordinate business vision and strategy with IT
investment and planning. The first phase of this effort is      In the future the OIG plans to review the warranty terms
the creation of an Amtrak Enterprise Architecture (EA)          of the previous contract.
that provides a cohesive future state vision for business
processes, applications, services, information and              DMJM+Harris Inc. – East River Tunnel
infrastructure. Business Drivers and Enterprise Business        Ventilation Project
Strategies were first identified to influence the following     Questioned Costs of $102,112
Target Architectures:                                           Audit Report 208-2008 – Response 3/9/2009
H	Business Architecture: Describes the future capabilities      The Procurement and Materials Management Department
  that the business needs to support a future vision.           is involved in negotiations with the contractor for
                                                                settlement of the final cost. OIG was requested to
H	Information Architecture: Describes how information
                                                                review 100 percent of the labor hours and costs used
  is managed to support future business needs.
                                                                during the Modification No. 2 of the original contract for
H	Technology Architecture: Describes what technology            Construction Management Services for the rehabilitation
  investments need to be made to support the future             of the East River Tunnel Ventilation Facility at Long Island
  business needs.                                               City, New York; OIG has started this review.
Amtrak IT Department and Gartner jointly delivered
                                                                UP Audit
EA artifacts that describe Amtrak’s Current and Target
                                                                $144,659 Excess Billings Identified
Architecture. The EA artifacts included a Transformation
                                                                Report 407-2004 – Issued 3/7/2007
Plan or Roadmap consisting of 14 key “gap closing”
EA initiatives requiring over $600 million in capital           Effective January 1, 2000, The National Railroad
investment. These EA initiatives have been grouped in to        Passenger Corporation (Amtrak) entered into an
five broad IT programs, i.e. Strategic Asset Management,        Agreement with the Union Pacific Railroad Company
Next Generation Reservation System, IT Infrastructure           (UP), which consolidated the four previous contracts for
Initiative, Amtrak Information Modernization, and               the Southern Pacific (SP), the Union Pacific, the Southern
Enterprise Customer Management.                                 Pacific Central States Line, and the Denver and Rio
                                                                Grande Western Railroads for intercity rail passenger
Management Responses over 180 Days                              operations on tracks and properties owned by UP. Under
Old for Which Corrective Action Has                             the agreement provisions, the UP bills Amtrak each
Not Been Completed                                              month for specific services and facilities for intercity rail
                                                                passenger operations. The purpose of our audit was to
                                                                determine the accuracy, reasonableness, and validity of
Mass Transit Products, Inc. - Termination for
                                                                the charges the UP billed Amtrak for selected items and
Default for Superliner I Overhaul
                                                                to develop an audit adjustment claim if appropriate.
Questioned costs of $63,184
Audit Report 219-2005 – Response 1/25/2006                      The scope of the audit encompassed the period from
                                                                January 1, 2002 through December 31, 2003, and
The Procurement and Materials Management Department
                                                                consisted of analyzing the UP’s monthly billing costs,
is still involved in ongoing settlement negotiations with
                                                                records, payments, technical opinions, vendor invoices,
the contractor and its suppliers and the OIG will continue
                                                                Amtrak delay reports, internal/external letters and
to monitor the actions taken.
                                                                memoranda, historical documentation of similar railroad             Office of
                                                                                                                                Inspector General
                                                                                                                                       17
    Significant Activities: Audits


                    billings, where available, and other information, as
                                                                                    AUDIT STATISTICS
                    deemed necessary.
                                                                                    Status of Audit Projects
                    The OIG did not audit 100 percent of the billing costs          Audits in progress at 4/01/09	                    64
                    due to resource limitations, dollar materiality, and other      Audit projects postponed or cancelled	             6
                    constraints. The OIG selected 14 of 23 items billed for         Audit projects started 	                          19
                    audit accounting for more than 98 percent of the total          Audit reports issued	                             19
                    billing. The OIG found erroneous billings in 10 of the 14       Audit projects in progress 9/30/08	               59
                    items selected for audit, $230,282 overbilled and $85,623
                    underbilled for a net total of $144,659 due Amtrak. UP          Audit Findings
                    representatives agreed with the OIG findings.                   Questioned costs	                     $103,679,156
                    The OIG recommended that management initiate a                  Unsupported costs	                              $0
                    final settlement letter and that monies due Amtrak be           Funds to be put to better use	         $44,706,930
                    collected.
                                                                                    Total	                               $148,386,086
                    Management Response:
                    The OIG received management’s response on April 14,
                    2008 agreeing with the findings and indicating that            The OIG recommended fundamental changes in the way
                    $121,808 will be collected from the UP and $22,851             Amtrak handles its host railroad contracts including: an
                    from the Burlington Northern/Santa Fe (BNSF) for fueling       internal reorganization for the groups dealing with host
                    rented locomotives.                                            railroads; a change in the billing review process from
                                                                                   untimely back-end audits to a timely front-end thorough
                    Host RRCA & Operations Management Controls                     and complete review; and, a contractual change in OTP
                    Report 401-2008 – Issued 8/21/2008                             incentives to adopt Delay Avoidance Incentive or similar
                                                                                   process.
                    The OIG completed a review of the Host Railroad Contract
                    Administration (HRG) and Operations Management (CA)            Management Response
                    departments’ internal controls. The objectives of this audit   Management agreed to take responsibility for the
                    were to identify management controls for the railroad          billing reviews and has begun to take steps necessary to
                    contract administration and negotiation as it relates to       implement recommendation.
                    the administration, and to evaluate the adequacy and
                    effectiveness of these controls. The audit covered the
                    period from January 1, 2007 through December 31, 2007
                    and prior years for some areas.
                    The OIG found that management’s controls are inadequate
                    and ineffective. The current billing review process before
                    approving payment to host railroads is not adequate
                    to detect material errors. The OIG found that: railroad
                    monthly billings are not thoroughly and completely
                    reviewed before payment; the current OTP billing
                    process consistently allows and results in significant
                    over billing; the adoption of DAI could result in a cost
                    saving of $341,000 per year; the current organizational
                    structure does not maximize operational efficiencies
                    and effectiveness; responsibilities and functions are not
                    clearly defined and separated; HRG and CA Departments
                    do not have formal written procedures; CSX, Norfolk
                    Southern (NS) and UP amendment agreement changes
                    are not current; HRG does not actively monitor
                    operational changes that affect host railroad agreements
                    and billings; and generally, the bases for flat rated costs
                    are not documented.



    Office of
Inspector General
       18
                                                                                                                  Significant Activities: Investigations


Theft
Theft andand
          Fraud
              Fraud                                                                                   period, based on a previously reported OIG investigation,
                                                                                                      a joint effort between the OIG’s Investigation and Audit
Theft Scheme involving Train Provisioning                                                             units, the company was able to recover an additional
Management System Clerks and 42 Lead                                                                  $145,105.71 from a vendor in disputed funds. The joint
Service Attendants                                                                                    effort identified that in at least two Amtrak locations a
Restitution order expected, amount not yet determined                                                 major fuel vendor had supplied Amtrak with a lesser grade
On July 7, 2009, a former Train Provisioning Management                                               of fuel than that for which Amtrak had contracted.
System (TPMS) Clerk entered a plea of guilty in the
United States District Court for the Northern District                                                Theft of Fleet Credit Cards
of Illinois Eastern Division to violation of Title 18 USC,                                            OIG’s continuing joint investigation with the Government
Section 666 (a) (1) (A) Theft or Bribery Concerning                                                   Services Administration (GSA) Office of Inspector
Programs Receiving Federal Funds. The former TPMS                                                     General regarding the theft of fleet credit cards led to
Clerk, in conjunction with another former TPMS Clerk,                                                 the indictment of a former Amtrak employee involved
orchestrated a theft scheme involving 42 Lead Service                                                 in the case. The former employee was indicted by a
Attendants – all of whom were terminated or resigned –                                                Federal Grand Jury on one count of Theft of Government
and a loss to Amtrak of $124,686.02. Sentencing is set                                                Property (18 USC 641) and one count of Unauthorized
for October 5, 2009.                                                                                  Access Device Fraud (18 USC 1029) and Aiding and
                                                                                                      Abetting (18 USC 2). The indictment charged the former
On September 10, 2009, another former TPMS Clerk
                                                                                                      employee with selling stolen fleet credit cards to a co-
was sentenced in the United States District Court for the
                                                                                                      conspirator, who had already pled guilty as reported in
Northern District of Illinois Eastern Division to 12 months
                                                                                                      the last Semi Annual period. On August 25, 2009, the
and one day of incarceration and held responsible for
                                                                                                      former employee subsequently pled guilty to one count
$94,000 of the loss to Amtrak. The sentencing followed
                                                                                                      of aiding and abetting the theft of government property
a guilty plea on January 12, 2009 to violation of Title 18
                                                                                                      (18 USC 641 and 2). The former employee is awaiting
USC, Section 666 (a) (1) (A) Theft or Bribery Concerning
                                                                                                      sentencing.
Programs Receiving Federal Funds. The former employee,
co-conspired for the with the aforementioned former
                                                                                                      Theft of Unclaimed Payroll Checks
TPMS Clerk on the theft scheme above.
                                                                                                      $18,471 to be recovered
                                                                                                      Amtrak payroll checks that were in the unclaimed or
Recovery of Restitution
                                                                                                      abandoned property file were diverted by an Amtrak
$145,105.71 recovered
                                                                                                      employee in the Payroll Department to an Amtrak
The OIG has been conducting investigations related to
                                                                                                      Conductor. The Conductor negotiated the diverted
potential fuel fraud and shortages. During this reporting
                                                                                                      checks in the total amount of $18,471. These unclaimed
                                                                                                      property checks had been returned to Amtrak due to the
 Types of allegations
                                                                                                      death or relocation of the recipient. Payroll Department
 4/1/09 – 9/30/09	                                                                                    employees were charged with locating the recipient or
 Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  9                       family members of the recipient. When the recipient was
 Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . .  3                                found, a manually generated check was to be issued to
 Bribery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1                       them. Both employees were administratively terminated
 Kickbacks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  3                         as a result of OIG’s investigation. Subsequently, this
 False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4                          matter was referred for prosecution to the United States
 False Statements  . . . . . . . . . . . . . . . . . . . . . . . . . .  1                             Attorney’s Office.
 False T&A Records . . . . . . . . . . . . . . . . . . . . . . . .  10
 False Expense Reports . . . . . . . . . . . . . . . . . . . . . .  1                                  Sources of Allegations
 Drug Violations  . . . . . . . . . . . . . . . . . . . . . . . . . . .  2
                                                                                                       4/01/09 – 9/30/09
 Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . .  9
 Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2                        Amtrak Employee . . . . . . . . . . . . . . . . . . . . . . . . .  18
 Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . .  4                              Anonymous Source  . . . . . . . . . . . . . . . . . . . . . . .  20
 Mismanagement  . . . . . . . . . . . . . . . . . . . . . . . . . .  5                                 Confidential Informant . . . . . . . . . . . . . . . . . . . . . .  9
 Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . .  3                             Private Citizen . . . . . . . . . . . . . . . . . . . . . . . . . . .  24
 Administrative Inquiry . . . . . . . . . . . . . . . . . . . . . .  9                                 Referred by Other Amtrak Department  . . . . . . . . .  4
 Other Non Criminal . . . . . . . . . . . . . . . . . . . . . . .  17                                  Referred by Fed/State/Local Law Government . . . .  5
 Referral to Other Agency . . . . . . . . . . . . . . . . . . . .  2                                   Other . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  5
 TOTAL  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 85    TOTAL  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 85
                                                                                                                                                                                                                Office of
                                                                                                                                                                                                            Inspector General
                                                                                                                                                                                                                   19
    Significant Activities: Investigations


                    On July 1, 2009, both former employees pled guilty to          between Amtrak and various lessors and were secured
                    one count of 18 USC 371, conspiracy to commit Interstate       through Guaranteed Investment Contracts with insurance
                    Transportation of Stolen Property. On September 18,            companies. The potential debt associated with these 12
                    2009, the former Payroll employee was sentenced to six         defeased leases was about $900 million. At the time of the
                    months home confinement, three years probation and             defeased lease negotiations, Babcock & Brown (Babcock)
                    200 hours of community service. The former conductor           represented two of the lessor banks. In late 2007, Amtrak
                    was sentenced to two years probation and 150 hours of          became aware that two of its guarantors were in financial
                    community service. Both former employees were ordered          trouble putting Amtrak in jeopardy of default under the
                    to jointly and severally make restitution to Amtrak.           terms of its defeased lease agreements.
                                                                                   In early 2008, Amtrak decided to engage Babcock to
                    Counterfeit Maryland Area Rail Commuter
                                                                                   provide financial advice to Amtrak on replacement of
                    Monthly Tickets
                                                                                   the two troubled guarantors for the defeased lease
                    $5,600 to be recovered
                                                                                   agreements, along with providing strategic advice and
                    The OIG investigated a report of counterfeit Maryland
                                                                                   participating in potential transaction restructuring
                    Area Rail Commuter (MARC) Monthly Tickets being
                                                                                   negotiations with Amtrak’s lessors. Amtrak management
                    used on-board various MARC trains. As a result, OIG
                                                                                   determined that Babcock’s previous representation
                    determined that 32 counterfeit monthly tickets were
                                                                                   of two lessors would not adversely affect the advice
                    passed for $5,600 in lost revenue. OIG interviewed
                                                                                   Babcock provided to Amtrak.
                    the suspect, who confessed to making the counterfeit
                    monthly tickets and selling them for extra money. OIG is       The OIG found that Babcock’s advising Amtrak in
                    pursuing $5,600 in restitution from the suspect.               connection with the replacement of guarantors for
                                                                                   defeased leases put Amtrak at a greater business risk.
                    Kickbacks
                    Kickbacks                                                      This should not have been treated cavalierly by Amtrak
                                                                                   management and should have been fully vetted prior to
                                                                                   continuing with the engagement of Babcock. Babcock’s
                    Kickback Resulting from Contract Award
                                                                                   financial advice regarding the defeased lease transactions
                    OI received information from an anonymous source
                                                                                   heavily favored one course of action: replacement of the
                    alleging that a New York Structures Supervisor had
                                                                                   two troubled guarantors.
                    received a motorcycle from an asbestos abatement
                    contractor in consideration for his assistance and             In response to a direct question from an official of the
                    support in connection with the award of a contract.            Department of Transportation (DOT) concerning whether
                    The subsequent OI investigation substantiated the              Amtrak was getting clean independent advice free from any
                    allegation.                                                    potential conflict of interest in connection with Babcock’s
                                                                                   advisory services to Amtrak, an Amtrak official assured
                    As a result of the OIG investigation it was revealed that an
                                                                                   the DOT official that all was well. OIG’s investigation
                    asbestos abatement contractor had been recommended
                                                                                   concluded that Amtrak’s representation at that time may
                    by an Amtrak Structures Supervisor for a significant
                                                                                   have been less than fully candid, based on incomplete fact
                    project in New Jersey. The contractor was awarded the
                                                                                   validation and insufficient expertise to determine whether
                    contract in May 2002. The contractor rewarded the
                                                                                   a conflict or other risk to Amtrak existed.
                    Structures Supervisor for his support with the gift of a
                    motorcycle at the request of the Structures Supervisor.        The OIG found that Amtrak managers appeared to have
                                                                                   hastily predetermined a course of action that was not fully
                    The Structures Supervisor initially told OIG Agents that
                                                                                   thought through. Amtrak spent a significant amount of
                    he had purchased the motorcycle from a private owner
                                                                                   money on both legal and financial advice, in addition to
                    and had paid cash for the motorcycle. He obtained an
                                                                                   the millions of dollars spent in connection with replacing
                    altered bill of sale to conceal the purchase. Prior to an
                                                                                   the guarantors or unraveling of the original defeased
                    administrative hearing, the Structures Supervisor was
                                                                                   lease transactions.
                    terminated in April 2009.
                                                                                   Amtrak failed to review invoices from Babcock for
                    Waste,
                    Waste, Abuse,
                           Abuse, and
                                  and Mismanagement
                                      Mismanagement                                substantiation of expenses claimed, some of which
                                                                                   far exceeded the norms that Amtrak pays to other
                                                                                   contractors or advisors.
                    Mismanagement Related to Amtrak Defeased
                    Leases                                                         As a result of the OIG’s investigation, several
                    In 1999 and 2000, Amtrak entered into 12 separate              recommendations were recently submitted for
                    financed sale and lease-back transactions known as             consideration to the Amtrak Board of Directors.
    Office of
                    “defeased leases” involving 624 in-service passenger
Inspector General   coach cars. The defeased lease transactions were
       20
                                                                    Significant Activities: Investigations


Management Response:                                           received a verbal counseling and was required to repay
Management response was still pending at the end of            Amtrak the cost of the two upgrades.
this reporting period.
                                                             H	An Auto Train On Board Services (OBS) Manager
                                                               abused his position by allowing family members or
Vendor Over-Billing
                                                               friends of Amtrak employees working the Auto Train
$32,477 recovered
                                                               to ride complimentary as unticketed passengers on
The OIG identified more than $34,000 in over billings by a
                                                               Auto Train as an incentive to encourage employees to
vendor contracted to provide modules for the Superliner
                                                               work during the holidays. The OBS Manager received
Remanufacture project at Amtrak’s Beech Grove facility.
                                                               a reprimand.
The over billings consisted of unauthorized charges for
General and Administrative costs on a change order and       H	The OIG received an allegation that a Human Resources
erroneous charges related to scrap material.                   Manager was directly involved with the hiring of a
                                                               family member. It was alleged the Manager took an
The OIG identified questionable actions by the Senior
                                                               active role in securing an additional week of vacation
Contracting Agent which allowed the purchase of two
                                                               for the family member as a part of the hiring package.
unused Deluxe Dividing Door Partitions totaling $10,669,
                                                               The OIG’s subsequent investigation supported the
as well as two possible underpayments to the contractor.
                                                               allegation. As a result, the Manager received a one
As a result of OIG’s investigation, the Senior Contracting
                                                               day suspension.
Agent received a formal counseling for her actions, and
Amtrak has recovered $32,477 from the vendor.
                                                             Misappropriation of
                                                             Misappropriation of Amtrak
                                                                                 Amtrak Assets
                                                                                        Assets
Mismanagement of Training Funds
The OIG received an allegation that a Group Information      Unauthorized Vehicle Use
Officer assigned to Amtrak’s Information Technology          H	An OIG investigation revealed that an Amtrak employee
(IT) Department had circumvented Amtrak policies and           took an Amtrak vehicle home, without alternate
procedures by using IT “training funds” to pay for his         garaging authority, several times. Subsequently the
Ph.D. degree.                                                  employee was disciplined and suspended for 10 days.
The OIG investigation confirmed that after the employee’s    H	An OIG investigation revealed that an Amtrak employee
Educational Assistance Application was denied, he sought       took an Amtrak vehicle to his place of business,
and obtained monies stated as “training funds” to pay in       without alternate garaging authority, approximately
full for two prerequisite doctoral courses in furtherance      a dozen times over a two year period. As a result of
of his Doctorate of Management. It should be noted             OIG’s investigation, subsequently the employee was
that prior to the completion of the OIG investigation, the     disciplined and suspended for 10 days.
company undertook steps to clarify its policy related to
                                                             H	An Amtrak investigation revealed that an Amtrak
the use of training funds.
                                                               employee was leaving work early and taking an Amtrak
                                                               vehicle home without authorization. The employee’s
Abuse of Position
                                                               supervisor told OIG that he may have verbally approved
H	The OIG determined that a Chicago Trainmaster abused
                                                               that the employee could take the company vehicle
  his position by requiring a Conductor to allow two
                                                               home. Subsequently the employee was disciplined
  personal friends to ride in business class even though
                                                               and suspended for 30 days. The supervisor received a
  the friends had only paid coach fares. The Trainmaster




                                                                                                                            Office of
                                                                                                                        Inspector General
                                                                                                                               21
    Significant Activities: Investigations


                      reprimand for giving him unauthorized permission to         Improvement Program / Issuance of Managerial
                      take the company vehicle home.                              Oversight Guidelines
                                                                                  Following the dismissal of a Buildings and Bridges (B&B)
                    Falsification
                    Falsification of
                                  of Documentation
                                     Documentation                                Supervisor assigned to the Maintenance of Way (MOW),
                                                                                  OIG agents were advised of actions of harassment and
                                                                                  retaliation being launched against an employee who had
                    Falsification of Employment Application
                                                                                  testified in the Administrative Hearing which precipitated
                    As the result of an allegation and the subsequent OIG
                                                                                  the firing. An OIG investigation was conducted and
                    investigation, the OIG discovered that an employee had
                                                                                  resulted in numerous allegations, including but not
                    falsified his employment application alleging that he
                                                                                  limited to a lack of managerial oversight, overtime fraud,
                    graduated from high school. The OIG referred the findings
                                                                                  time and attendance issues, and misuse as well as theft
                    to Human Resources. The employee was terminated for
                                                                                  of company property.
                    providing false information on the job application.
                                                                                  The subsequent investigation, interviews and OIG
                    Assistance to Other Agency                                    administrative referral resulted in the agreement of the
                    Assistance to Other Agency
                                                                                  Engineering Department to OIG’s recommendations
                                                                                  to implement changes which will include required
                    Assistance to United States Marshal Service
                                                                                  attendance of all employees, headquartered at the MOW,
                    The OIG assisted the United States Marshal Service with
                                                                                  at a Communication/Training Improvement Program.
                    travel information on a person they were investigating
                                                                                  In addition, “A Manager/Supervisor Expectation and
                    for failure to register as a sex offender. The information
                                                                                  Guideline Letter” will be sent to all applicable managers
                    which OIG provided was crucial to the investigation and
                                                                                  and supervisors. Lastly, Engineering will be implementing
                    led to the indictment of the person. The prosecution in
                                                                                  a centralized time and attendance kiosk for all major
                    this matter is pending.
                                                                                  headquarters over the next year to enhance the existing
                                                                                  Maximo timekeeping system.
                    Recommendations
                    Recommendations toto Enhance
                                         Enhance Efficiency
                                                 Efficiency
                    and Effectiveness
                    and Effectiveness                                             Reconciliation of Management Leave Records
                                                                                  During the course of an investigation on another matter,
                    Family Medical Leave of Absence (FMLA) and                    OIG Agents discovered that Washington Crew Base
                    Leave of Absence (LOA) Systematic Problem                     Managers were unable to record their leave in the System,
                    Addressed                                                     Applications and Products (SAP) data processing system
                    The OIG, in conjunction with the Department of Labor’s        for calendar year 2008. As a result of recommendations
                    Office of Inspector General, opened a pro-active              made by OI in a Management Referral, the affected leave
                    investigation into potential Family Medical Leave of          records will be reconciled enabling Amtrak to recoup
                    Absence (FMLA) and leave of absence (LOA) abuse at            hundreds of leave hours that went unrecorded.
                    Amtrak. With the assistance of Amtrak’s Health Services
                    Department, which conducted an exhaustive review of           Theft Tracking Devices
                    its files, the OI was able to identify a number of suspect    The OIG received an allegation that a “Bobcat” Tractor/
                    employees who had the ability to continue to utilize          Backhoe was stolen from the Penn Coach yard and could
                    Amtrak benefits, while failing to provide the necessary       not be located. The OIG conducted an investigation into
                    paperwork required to maintain a LOA status.                  the matter and found that the “Bobcat” had been rented
                                                                                  without requiring a tracking device be placed on the
                    The OIG notified various affected Amtrak departments
                                                                                  machine in case of theft. The loss of the machine cost
                    requesting that they verify their employees’ LOA status
                                                                                  Amtrak approximately $15,000. The OIG recommended
                    and confirm that all Amtrak policies and procedures
                                                                                  to rent only machines on which tracking devices had
                    regarding LOA had been followed. As a result of this
                                                                                  been installed.
                    cooperative initiative, the notified departments have
                    taken or are in the process of taking the appropriate         Management Response
                    action to remedy this systemic problem. To date,              Management agreed with the with OIG’s recommendation.
                    approximately 12 employees have been terminated with
                    a cost prevention of approximately $465,000 in savings        Change of Purchase Policy
                    to Amtrak each year.                                          $66,090 settlement for future credit on purchases or
                                                                                  services
                    In addition, the paperwork for approximately 17
                    employees have been updated and accurately reflected in
                    Amtrak systems. Lastly, the status for approximately 25
    Office of       employees is still pending. This investigation is on-going.
Inspector General
       22
                                                                       Significant Activities: Investigations


Amtrak Engineering reported that Amtrak had ordered,           reports and systems revealed numerous and consistent
paid for but never received switch board equipment             failures. As a result of these findings, OIG issued
from an equipment provider in 2001. The equipment              findings and Administrative Referrals to the applicable
cost Amtrak $66,090. The subsequent OIG investigation          Superintendents.
confirmed this information and based on the resulting OIG
                                                               Oakland Management has agreed with RPU findings
Management report, Amtrak changed its purchase policy.
                                                               and responded by addressing employee failures with
On August 21, 2009, a Confidential Settlement Agreement        discipline on the 11 LSAs identified as having violated
was made with the contractor to provide Amtrak $66,090         policy. Written changes to policy, refresher notices, job
by wire transfer or check, or extend credit to Amtrak in the   briefings, and Operation Standards Updates (OSU) will
amount of $66,090 towards future purchases or services.        be utilized to identify exceptions to policy.
                                                               Management Response
Cancellation of Amtrak-Issued American
                                                               Los Angeles Management has agreed with RPU findings
Express Credit Cards
                                                               and responded by addressing RPU findings with discipline
A review by the OIG of Amtrak accounting records
                                                               on the 11 LSAs identified as having violated policy. A
revealed that some Amtrak employees had retained their
                                                               review of the current policy and procedures for hours of
Amtrak-issued American Express Credit Cards after they
                                                               service issues will be conducted and revised, if necessary.
left Amtrak employment. OI referred this information
                                                               Management will incorporate a POS reconciliation report
to Accounting Management for further handling.
                                                               into the LSA review process and conducted job briefings
Accounting Management found that out of 738 active
                                                               with reinforcement of the correct policy and procedure
American Express Credit Cards assigned to Amtrak
                                                               on identified RPU findings.
employees, 31 were found to be issued to employees who
no longer work for Amtrak. As a result, those American
                                                               RPU-Initiated Conductor Reviews
Express Credit Cards were cancelled.
                                                               During this review period, RPU conducted 33 random
                                                               observations of Conductors and Assistant Conductors
Change of Policy Regarding Vendor 1099 Forms
                                                               based out of Los Angeles and Oakland. Ten random
Proactive research by the OIG of Amtrak’s Accounting
                                                               reviews were conducted on 11 different Conductors and
system revealed that some vendors who had done
                                                               Assistant Conductors assigned to work the Downeaster
business with Amtrak in 2008 did not receive a form 1099
                                                               trains in New England. The review revealed widespread
for income reporting purposes. As a result of the OIG
findings and subsequent referral, Accounting addressed
the omissions and created additional steps to prevent           PROSECUTIVE REFERRALS
similar problems in the future.
                                                                4/01/09 – 9/30/09

Revenue                                                         Referrals	              U.S.	          Local/	         TOTAL
Revenue Protection
        Protection Unit
                   Unit
                                                                	                     Attorney	        State
                                                                	             Criminal Cases
RPU-Initiated Lead Service Attendant Reviews
                                                                Indictments	         4	                   0	              4
During this reporting period, in conjunction with onboard
                                                                Convictions/Pleas	 5	                     0	              5
train observations of LSAs, RPU analyzed the applicable
                                                                Pending*	           20	                   0	             20
support documentation for on board food and beverage
                                                                Declinations	        0	                   0	              0	
sales for 128 trains on 56 different LSAs. The completed
reviews resulted in 21 administrative referrals consisting
                                                                TOTAL			                                                 29
of various findings covering theft and fraud to failure to
follow procedures. At the completion of this reporting
                                                                	                   Civil Cases
period, discipline had been assessed, based on these
                                                                Suits Filed	              0	              0	              0
and previous reporting period RPU referrals, for 14 LSAs,
                                                                Settled	                  0	              0	              0
with discipline ranging from termination, suspension or
                                                                Pending	                  0	              0	              0	
disqualification to formal reprimand, remedial training or
counseling.
                                                                TOTAL			                                                  0
In an effort to identify any significant problems related
to LSA compliance with on board policy and procedure            TOTAL CIVIL AND CRIMINAL		                               29		
on trains featuring Point of Sale (POS) machines, RPU
conducted a sampling of 33 random observations on 24            *Some of these will be reflected under pending civil cases because
                                                                these matters are being handled by the United States Attorney’s
different Los Angeles and Oakland LSAs. The observations        Office in parallel proceedings. In cases where there have been
and subsequent analysis of the corresponding documents,         convictions or pleas, we may be awaiting sentencing, restitution         Office of
                                                                or other resolutions.                                                Inspector General
                                                                                                                                            23
    Significant Activities: Investigations


                                                                                   prepared, confident and knowledgeable of the process.
                     Case Status of Investigations
                                                                                   Amtrak’s process for handling formal discipline cases
                     4/1/09 – 9/30/09	                                             equitably divides responsibility among three participating
                     Total Open Cases as of 4/1/09	                      330       parties; the Hearing Officer, the Charging Officer, and if
                     Closed Cases	                                       -84       guilt is proven, the senior department official. Having the
                     Opened Cases	                                        85       best qualified, experienced and unbiased individuals for
                                                                                   these positions is paramount to the success of Amtrak’s
                     Total Ongoing Cases as of 9/30/09	                  331       discipline program.
                                                                                   The Hearing Officer must be able to be objective in his
                    patterns of apparent intentional disregard for or lack         conduct. He must be able to exercise a high degree of
                    of knowledge of required policy and procedure. Several         self-control and have the ability to analyze and evaluate
                    of these findings were in areas that attribute towards         facts without regard to personal opinions. He should
                    a negative impact to Amtrak’s cash position or pose a          avoid any expression of his personal opinion regarding
                    safety and/or security issue. Administrative Referrals         the case or with regard to the guilt or innocence of the
                    were forwarded to the applicable Superintendents for           employee.
                    further handling.
                                                                                   During this reporting period, RPU became concerned
                    Management Response                                            about opinions against investigations related to OIG/
                    Oakland Management has agreed with RPU findings                RPU findings by a West Coast-based Hearing Officer.
                    resulting in eight individuals counseled, five charge          The Hearing Officer has exerted his authority to either
                    letters issued, with two employees accepting waivers           dismiss cases or rule unfavorably without reasonably
                    for 20 day suspensions. Managment will issue notices           valid justification on several, consecutive occasions and
                    clearly stating and reminding conductors of policy and         in spite of significant evidence.
                    procedure, as well as establish meetings with each
                    manager and Pacific Division staff member to reinforce         In addition to the loss of a significant impact for the
                    careful monitoring ensuring future compliance.                 energy and time spent by OIG/RPU investigating and
                                                                                   proving wrongdoing by employees, these oversights,
                    Management has agreed that they will ensure that any           weaknesses and biased opinions often result in the
                    time a policy is changed it is clearly stated in writing and   failure to hold wrongdoers responsible for their actions.
                    submitted to the proper department for inclusion into
                    the Service Standards Manual (SSM), and replace verbal         The OIG intends to recommend to management that the
                    agreements with state agencies with clearly defined            system applicable to hearing officers who attend to OIG
                    written policies.                                              investigations be modified.

                    Los Angeles Management has agreed with RPU findings            Case Handling
                    and responded by addressing RPU findings with a review
                    and, if necessary, revisions to policies and procedures as     The OIG receives allegations from various sources,
                    needed. Management will reinforce acceptable policies          including     employees,     confidential    informants,
                    and procedures as job briefings.                               Congressional sources, federal agencies and third parties.
                    Boston management has responded to the RPU Referral            Presently, we are handling 331 investigations; in the last
                    pertaining to Downeaster Ten-trip Ticket Mishandling           six months, we opened 85 cases and closed 84 cases.
                    with appropriate discipline and/or refresher notification      As set forth in the chart below, entitled “Sources of
                    of policies and procedures.                                    Allegations,” employees and anonymous source referrals
                    Boston management met with the Manager for Epicurean           accounted for about 44 percent of the allegations during
                    Feast, provider of food and beverage service on Downeaster     this reporting period, with employees being the source of
                    trains, to discuss observations made by RPU indicating that,   18 of the 85 allegations, or 21percent.
                    in general, the service provided by this private company       The OIG received 76 HOTLINE complaints during this
                    does not portray Amtrak in the best light.                     reporting period. The majority of HOTLINE complaints
                                                                                   received during this reporting period were from private
                    Formal Investigation Issues                                    citizens.
                    OIG personnel spend energy and countless hours
                    researching allegations that often represent findings of
                    wrongdoing resulting in discipline. For those discipline
                    matters handled through the formal discipline process
                    involving a trial, it is important that all parties be
    Office of
Inspector General
       24
                                                           Significant Activities: Investigations


OIG Hotline

The fraud OIG HOTLINE program has continued to
provide employees or third parties an opportunity to
report allegations of fraud, waste, abuse, and other
wrongdoing. Employees can access the HOTLINE 24
hours a day by calling Amtrak Telephone
System (ATS) number 728-3065 in Philadelphia and the
toll free number (800) 468-5469 if outside Philadelphia.
During working hours from 9:00 a.m. to 4:30 p.m., the
OIG answer callers on the HOTLINE system. During other
hours or during those occasions when staff are away from
the office, callers can leave a message on the HOTLINE
answering machine.
People may write in confidentially to P.O. Box 76654,
Washington, DC 20013. The OIG received nine telephonic
HOTLINE complaints during this reporting period, which
is an increase from the previous reporting period. The
majority of HOTLINE complaints received during this
reporting period were made by anonymous sources and
private citizens.


 HOTLINE STATISTICS
 4/01/09 – 9/30/09 	                            TOTAL
 Hotline Complaints Received:	                     76

 Sources of Hotline Complaints:
 Private Citizen	                                  42
 Anonymous Source	                                 22
 Amtrak Employee	                                  10
 Federal LEO	                                       1
 Other OIG	                                         1

 Classification of Complaints:
 Criminal – Other	                                 33
 Non-criminal/Other	                               13
 Fraud	                                             6
 Theft	                                             4
 False T&A	                                         5
 Mismanagement	                                     3	
 Abuse of Position	                                 1
 Conflict of Interest	                              1
 Waste	                                             2
 Administrative Inquiry	                            8

 Complaints Referred To:
 OI Field Offices	                                 35
 Management	                                       31
 APD	                                               2
 RRB/OIG	                                           1
 No Action Required	                                6
 OIG Audit/Inspections	                             1
                                                                                             Office of
                                                                                         Inspector General
                                                                                                25
    Significant Activities: Inspections and Evaluations


                    Human Capital Management – Amtrak faces                         Lower turnover, greater productivity, improved morale,
                    significant Human Capital Management                            less overtime, and lower training costs are all benefits
                    challenges over the next 5 years                                that could be gained through more efficient and effective
                    $23M to $50M in potential savings identified                    management of Amtrak’s human capital.
                    Report E-09-03 – Issued 5/15/2009
                                                                                    During the course of the Human Capital Management
                    In November 2007, the Office of the Inspector General           Evaluation, the OIG decided to conduct a separate and
                    (OIG) initiated a company-wide evaluation of how                more detailed review of employee development and
                    Amtrak manages its human capital (HC). The team                 training. A separate report on that evaluation will be
                    evaluated how well Amtrak identifies its manpower               issued in the next reporting cycle.
                    needs and then recruits, hires, develops and retains the
                                                                                    Management Response
                    individuals with the skills needed to accomplish Amtrak’s
                                                                                    Management agreed with all of the recommendations
                    mission and strategic goals.
                                                                                    except to combine the Labor Relations and Human
                    The OIG found that, although the traditional role of            Resources departments into one department under a
                    human resources (HR) has evolved over the past 20               single Human Capital Officer.
                    years from being mainly transactional and reactionary
                    to one that is more proactive and strategic, Amtrak has         Lessons Learned: An Analysis of the Acela and
                    been slow in following this trend. For various reasons,         Surfliner Programs – Lessons learned from past
                    the Human Resources and Labor Relations Departments             major equipment procurements documented to
                    have not been viewed as strategic partners at Amtrak.           guide future procurements
                    This will need to change for Amtrak to address its human        Report E-09-04 – Issued 7/21/2009
                    capital management challenges in the future.
                                                                                    Amtrak is currently planning a number of rolling stock
                    Once the economy rebounds, there is a real danger that          equipment procurements. To insure current Amtrak
                    Amtrak will lose skilled craftsman and technical expertise      decision-makers are knowledgeable of “lessons learned”
                    faster than it can replace them. In fact, over a quarter of     from past Amtrak procurements, the OIG decided
                    Amtrak’s workforce will be eligible for retirement in less      to review the experience of two of Amtrak’s major
                    than five years. Investments in recruiting, developing,         equipment procurement programs during the last 15
                    motivating, and retaining, highly qualified employees           years (Acela and Surfliner) and document the “lessons
                    with the skills that are critical to Amtrak’s current and       learned” from these programs. To accomplish this, the
                    future needs are required for the company to maintain           OIG interviewed over a dozen of the key individuals
                    its position as the leader in intercity passenger rail within   involved in these procurements.
                    the United States. To ensure these investments are spent
                                                                                    The individuals interviewed had many recommendations
                    wisely and targeted in the correct areas, Amtrak needs
                                                                                    from their experiences with these procurements. The OIG
                    a comprehensive, corporate-wide HC strategy that is
                                                                                    report discusses both programs and documents 20 of these
                    tied to the company’s strategic plan and is supported by
                                                                                    recommendations to help guide Amtrak management in
                    Amtrak’s senior leadership and its Board of Directors.
                                                                                    any future major equipment procurement.
                    To help the company address this critical issue and to
                                                                                    Management Response
                    improve the efficiency and effectiveness of its HC, the
                                                                                    Management agreed with the recommendations and
                    report makes 24 specific recommendations – including
                                                                                    has already incorporated some of them into current
                    the creation of a HC officer position for the company to
                                                                                    procurement actions.
                    provide a single point of accountability for leading the
                    strategic transformation of HC management that must
                                                                                    Amtrak’s Infrastructure Maintenance Program
                    occur if Amtrak is to be successful in the future.
                                                                                    Potential cost savings of $50M to $150M identified
                    In an attempt to quantify the potential benefits Amtrak         Report E-09-05 – Issued 9/28/0909
                    could realize by improving its HC management practices,
                                                                                    As reported in the last semiannual report, the OIG has
                    the OIG compared Amtrak’s expenditures in this area with
                                                                                    been involved in a multi-year evaluation of the efficiency
                    other large companies. Based on the OIG benchmarking,
                                                                                    and effectiveness of Amtrak’s right-of-way (ROW)
                    the OIG estimates that Amtrak could potentially save
                                                                                    maintenance programs. The OIG recently issued our final
                    between $23 million and $50 million if it performed
                                                                                    report of this evaluation, which utilized a combination
                    as efficiently as the benchmarked companies. These
                                                                                    of qualitative and quantitative techniques to assess the
                    estimates represent the potential savings in costs for
                                                                                    efficiency and effectiveness of Amtrak’s program and to
                    typical HR administration and services.
                                                                                    identify opportunities for improvement.
    Office of
                    Although far from insignificant in themselves, these
Inspector General   savings are only a part of the benefits to be gained.
       26
                                           Significant Activities: Inspections and Evaluations


To measure the relative efficiency and effectiveness of      in previous semiannual reports. Additional credits are
Amtrak’s Infrastructure Maintenance program, the OIG         still pending based on further OIG analysis of settlement
benchmarked Amtrak’s performance metrics to those of         calculations.
comparable European railroads. To identify the “best
practices” in infrastructure maintenance, OIG staff          Amtrak Mechanical Maintenance Operations
visited six European countries/infrastructure operators      $2.5 million in additional benefits realized
that were included in the benchmarking study and             In September 2005, the OIG issued report E-05-04,
had unique expertise in specific areas of infrastructure     which resulted from a year-long system-wide review of
maintenance and renewal.                                     Amtrak’s Mechanical Maintenance Operations. In this
                                                             report, the OIG recommended that Amtrak adopt a more
The benchmarking process showed that Amtrak has an
                                                             modern maintenance philosophy based on Reliability-
opportunity to reduce its long-term infrastructure capital
                                                             Centered Maintenance (RCM). An RCM-based program
and operating maintenance costs by $50 million to $150
                                                             requires that all maintenance activities be supported by
million per year by improving the overall efficiency and
                                                             sound technical and economic justifications.
effectiveness of its infrastructure maintenance program
to the level of comparable European railroads. During        The OIG’s report recommended specific actions that
the visits to the six European countries/infrastructure      Amtrak should take to transition to RCM and to make
operators, the OIG staff discovered numerous maintenance     the operations more efficient. For the past four years the
practices and technologies that Amtrak may be able to        OIG has been working with the Mechanical Department
adopt to improve the efficiency and effectiveness of its     to help them implement the OIG recommendations.
infrastructure maintenance program.
                                                             Some of the recommendations in the report on
The OIG evaluation further revealed that there are           Mechanical Maintenance Operations addressed
numerous causal factors that determine why Amtrak            streamlining Amtrak’s maintenance processes. One
spends more on its infrastructure maintenance and that       of the improvement efforts that the OIG continues to
some of these factors are outside of Amtrak’s direct         support is providing advice and assistance with process
control.                                                     improvement and manpower utilization for turnaround
                                                             servicing at our major stations.
This report documents the OIG staff findings and
lists 16 recommendations to help Amtrak manage its           During FY09, working with management at three
Infrastructure Maintenance Program more effectively          of Amtrak’s maintenance locations, productivity
and efficiently and to take advantage of the opportunity     improvements have generated more than $3 million in
to reduce its long-term infrastructure capital and           benefits from reduced overtime, vacant positions not
operating maintenance costs. The recommendations             filled, or labor made available for other work. $500,000 of
take into consideration that Amtrak is not totally in        these benefits were reported in the previous semiannual
control of all of the factors impacting its infrastructure   report. As we assist management in implementing
maintenance costs and that Amtrak must enlist the            these improvements at other locations The OIG hopes to
support of outside agencies to accomplish several of the     achieve similar results.
recommended actions.
                                                             Locomotive Camera Installations
Management Response
                                                             The OIG is continuing to oversee and advise on a project
Management response was still pending at the end of
                                                             to install cab-mounted video cameras on all of Amtrak’s
this reporting period.
                                                             locomotives. Freight railroads have shown that these
                                                             types of cameras have made a huge difference in
Procurement and Material Supply Chain
                                                             their ability to defend themselves in claims involving
Management
                                                             grade-crossing accidents, thereby significantly reducing
Additional credit of $575,937.70 for overcharges
                                                             settlement costs and court awards from these types of
Amtrak entered into a contract with Alstom TLS in
                                                             lawsuits.
2006 to supply and manage the parts inventory for the
Acela trainsets. This contract has an estimated value        This effort began as an OIG-initiated, limited-scope
of close to $200 million over the five-year term. As         project to demonstrate and learn about the technology.
reported previously, the OIG questioned whether Amtrak       Since then, cameras have been installed on more than
was getting proper credit for components returned            230 locomotives. The cameras are now recording a
to inventory after bench testing. Based on the OIG’s         collision or some other incident somewhere in Amtrak’s
inquiry, Amtrak received a credit of $3,271,074.95 for       system almost every day, greatly helping to pinpoint the
overcharges during the period of September 2007 to           causes of the incidents. The installation on the rest of
August 2008. Of this total, $2,695,137.20 was reported       Amtrak’s locomotives is planned to follow in FY 2010.             Office of
                                                                                                                           Inspector General
                                                                                                                                  27
    Significant Activities: Inspections and Evaluations


                    Harassment and Intimidation Complaints
                                                                                 investigations and evaluations
                    Amtrak’s Statement of Policy Against Harassment
                    and Intimidation states, in part, “Amtrak will, under        4/01/09 – 9/30/09
                    no circumstances, tolerate harassing or intimidating         Findings
                    conduct by any employee that is calculated to discourage     Cost Savings  . . . . . . . . . . . . . . . . . . . .  $575,937.70
                    or prevent any individual from receiving proper medical      Potential Future Savings  . . . . . . . . $73-$200 million
                    treatment or from reporting an accident, incident, injury    Productivity Savings . . . . . . . . . . . . . . . . $2.5 million
                    or illness.” This Statement of Policy conforms to Federal
                    Railroad Administration Regulations 49 CFR Part 225.33.
                    The Amtrak OIG investigates allegations of violation of
                    this policy.
                    During this reporting period, the OIG concluded its review
                    of two allegations received during the previous reporting
                    period. The OIG issued one letter of no finding, whereby
                    the OIG concluded that the employee was not harassed
                    or intimidated by management as defined by FRA 49 CFR
                    225.33. However, the OIG substantiated the allegation
                    in the other case and found that the employee’s manager
                    harassed and intimidated the employee with the intent
                    to discourage the employee from reporting an injury.
                    Amtrak Management was briefed on the findings.
                    Management Response
                    Management response was still pending at the end of
                    this reporting period.




    Office of
Inspector General
       28
                                                                                                                                                    Performance Measures


FY 2009 Performance Measures
4/01/09 – 9/30/09
Audit Results	                                                                                                                                                Total
Congressional Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Costs Questioned . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $104,743,472
Funds to be Put to Better Use  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  $44,706,930
Management Decisions to Seek Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  $103,679,156

Investigative Results 	                                                                                                                                                     Total
Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Convictions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Fines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Court Ordered Restitutions/Civil Judgments/Administrative Restitution  . . . . . . . . . . . . . . . . . . . . . . . . . . .  $112,471
Recoveries* . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  $145,105
Years Sentenced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Years Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Years Supervised Release . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Hours of Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 350
Debarments and Other Administrative Action  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76
Hotline Complaints Investigated by OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
Hotline Complaints Referred to Operating Administrations or Other Agencies  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
* Recovery totals do not include recoveries made as a result of joint activities with OIG




FY 2009 Advisory Functions
4/01/09 – 9/30/09
Advisory Functions	                                                                                                                                              Total
FOIA Requests Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FOIA Requests Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Legislation Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Regulations Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0




                                                                                                                                                                                          Office of
                                                                                                                                                                                      Inspector General
                                                                                                                                                                                             29
    Appendices




    Office of
Inspector General
       30
                                                                                         Appendix 1


office of Inspector General
Audit Reports Issued with Questioned CostS
4/1/09 – 9/30/09
	                                      Number	   Questioned Costs	   Unsupported Costs
A.	For which no management decision
   has been made by the commencement
   of the reporting period.	                5	        $1,064,316	                  $0

B.	Reports issued during the
	 reporting period.	                        8	      $103,679,156	                  $0

Subtotals (A + B)	                         13	      $104,743,472	                  $0


LESS

C.	For which a management decision
	 was made during the reporting period.	  10
	 (i) dollar value of recommendations
	 that were agreed to by management.		               $78,277,292	                  $0
	 (ii) dollar value of recommendations
	 that were not agreed to by management.		           $25,939,248	                  $0

D.	For which no management decision
	 has been made by the end of the
	 reporting period.	                        3	          $526,932	                  $0




                                                                                                Office of
                                                                                            Inspector General
                                                                                                   31
    Appendix 2


                    office of Inspector General
                    Audit Reports Issued with funds to be put to better use
                    4/1/09 – 9/30/09
                    	                                                    Number	   Dollar Value
                    A.	For which no management decision
                       has been made by the commencement
                       of the reporting period.	                              2	    $1,383,496

                    B.	Reports issued during the
                    	 reporting period.	                                      1	   $44,706,930

                    Subtotals (A + B)	                                        3	   $46,090,426


                    LESS

                    C.	For which a management decision
                    	 was made during the reporting period.	  2	                      $83,496
                    	 (i) dollar value of recommendations
                    	 that were agreed to by management.		                          $1,300,000
                    	 (ii) dollar value of recommendations
                    	 that were not agreed to by management.		

                    D.	For which no management decision
                    	 has been made by the end of the
                    	 reporting period.	                                      1	   $44,706,930




    Office of
Inspector General
       32
                                                                                                            Appendix 3


Office of inspector General
detailed listing of all issued audit reports
4/1/09 – 9/30/0
Date	        Report	 Report Title	                           Questioned	   Unsupported	   Funds to be Put
Issued	      Number		                                             Costs	         Costs	     to Better Use

9/29/2009	 103-2009	   AmPlan Eligibility Process Review	            $0	            $0	              $0
5/6/2008	 105-2008	    Mechanical Facility Support Equipment	        $0	            $0	              $0
4/14/2009	 105-2009	   Chicago Leases Expense Audit	           $247,955	            $0	              $0
5/13/2009	 201-2008	   Celerant Consulting Inc.		                    $0	            $0	              $0
6/17/2009	 202-2009	   Food & Beverage Inventory Transition	         $0	            $0	              $0
9/30/2009	 205-2009	   Attleboro Pawtucket Amendment	          $278,927	            $0	     $44,706,930
		                     Transition
5/13/2009	 207-2008	   Reimbursable Retroactive		          $102,602,866	            $0	               $0
		                     Wages Review
7/9/2009	 211-2009	    Baltimore Station Review		                    $0	            $0	               $0
8/6/2009	 213-2009	    Baltimore Station Real Estate Review	         $0	            $0	               $0
9/29/2009	 218-2008	   Amtrak Safety Audit Program Review	           $0	            $0	               $0
6/3/2009	 302-2009	    Thames River Pier Contract Modification	 $7,638	             $0	               $0
4/21/2009	 303-2009	   Thames River Counterweight Claim	        $99,633	            $0	               $0
8/31/2009	 305-2009	   Route 128 Station Audit		                     $0	            $0	               $0
8/26/2009	 307-2009	   Mueser Rutledge Change Order	                 $0	            $0	               $0
4/14/2009	 308-2007	   Cianbro Construction Grouting	          $376,209	            $0	               $0
		                     Change Order
5/14/2009	 401-2009	   Station Audit – Naperville, IL	               $0	            $0	               $0
9/29/2009	 402-2009	   Station Audit – Denver, CO		                 $50	            $0	               $0
9/29/2009	 403-2009	 Station Audit – Glenwood Springs, Co	          $0	             $0	               $0
8/24/2009	 506-2009	 Union Pacific Railroad – Diesel Fuel	     $65,878	             $0	               $0
		                   and Fuel Handling

TOTAL: 				                                               $103,679,156	             $0	     $44,706,930




                                                                                                                   Office of
                                                                                                               Inspector General
                                                                                                                      33
    Appendix 4


                    OFFICE OF INSPECTOR GENERAL
                    SUMMARY OF REPORTS TO THE PRESIDENT OF AMTRAK CONCERNING INFORMATION OR
                    ASSISTANCE UNREASONABLY REFUSED OR NOT PROVIDED
                    4/1/09-9/30/09
                    Nothing to report this period.




    Office of
Inspector General
       34
                                                                                                                           Appendix 5


OFFICE OF INSPECTOR GENERAL
REVIEW OF LEGISLATION AND REGULATIONS
4/1/09-9/30/09
Section (4)a of the Inspector General Act of 1978, as amended, provides that the Inspector General shall “review
existing and proposed legislation and regulations relating to programs and operations of such establishment and
to make recommendations in the semiannual reports …concerning the impact of such legislation or regulations
on the economy and efficiency in the administration of programs and operations administered or financed by such
establishment or the prevention and detection of fraud and abuse in such programs and operations.”
Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend policies
for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal agencies,
State and local governmental agencies, and nongovernmental entities with respect to (A) all matters relating to the
promotion of economy and efficiency in the administration of, or the prevention and detection of fraud and abuse in,
programs and operations administered or financed by such establishment, or (B) the identification and prosecution
of participants in such fraud or abuse.”
During the semiannual reporting period, the OIG conducted oversight of Amtrak’s American Recovery and
Reinvestment Act of 2009 (ARRA) activities and expenditures. As required by ARRA, the OIG has filed monthly reports
of the OIG’s ARRA financial expenditures and oversight activity with www.Recovery.gov, the website of the Recovery
Accountability and Transparency Board.
The Inspector General Reform Act of 2008 established an independent budget submittal process for the OIG. The
Chairman of the Amtrak Board of Directors submitted the OIG’s Fiscal Year 2011 budget estimate and request to
the Office of Management and Budget on September 14, 2009. The OIG’s annual budget estimate and request are
submitted to Congress as part of Amtrak’s annual grant and legislative request.




                                                                                                                                  Office of
                                                                                                                              Inspector General
                                                                                                                                     35
    Appendix 6


                    GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
                    The terms the OIG use in reporting audit statistics are defined below:
                    Questioned Cost -- Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
                    alleged violation of Amtrak’s corporate policy or procedure.
                    Unsupported Cost -- Cost that is not supported by adequate documentation at the time of the audit.
                    Funds to Be Put to Better Use -- Funds identified in an audit that could be used more effectively by taking greater
                    efficiency measures.
                    Management Decision -- Management’s evaluation of the OIG audit finding and its final decision concerning
                    agreement or non agreement with the OIG recommendation.
                    Abbreviations/acronyms used in the text are defined below:
                    ACL	   CCM Continuous Controls Monitoring                    MOW	      Maintenance of Way
                    Amtrak	National Railroad Passenger Corporation               NRPC	     National Railroad Passenger Corporation
                    ARRA	 American Recovery and Reinvestment Act                 	         (Amtrak)
                    	      of 2009                                               NS	       Norfolk Southern Railroad
                    B&B	 Buildings and Bridges                                   OBS	      Onboard Service
                    BNSF	 Burlington Northern Santa Fe Railroad                  OIG	      Office of Inspector General
                    CA	    Operations Management                                 OSU	      Operation Standards Updates
                    CCM	 continuous controls monitoring                          OTP	      On Time Performance
                    CEO	 Chief Operating Officer                                 P2P	      Purchase-to-Payment
                    CETC	 Centralized Electric and Traffic Control               POS	      Point of Sale
                    EA	    Enterprise Architecture                               P.L.	     Public Law
                    FMLA	 Family Medical Leave of Absence                        QOH	      Quantity on Hand
                    FY	    Fiscal Year                                           RCM	      Reliability-centered Maintenance
                    GSA	 Government Services Administration                      RAO	      Responsible Amtrak Officials
                    HC	    Human Capital                                         ROW	      Right-of-way
                    HR	    Human Resources                                       RPU	      Revenue Protection Unit
                    HRG	 Host Railroad Contract Administration                   SAP	      System, Applications and Products
                    IT	    Information Technology                                SP	       Southern Pacific Railroad
                    LAAS	 Lease Audit and Advisory Services, Inc.                SSM	      Service Standards Manual
                    LOA	 Leave of Absence                                        TPA	      Third Party Administrator
                    LSA	 Lead Service Attendant                                  TPMS	     Train Provisioning Management System
                    MBTA	 Massachusetts Bay Transportation Authority             UP	       Union Pacific Railroad
                    MOU	 Memorandum of Understanding                             U.S.C.	   United States Code




    Office of
Inspector General
       36
                                                                                       Reporting Requirements Index


INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
AMENDMENTS OF 1988 (P.L. 100-504)

Topic	               Reporting Requirements	                                                                 Page

Section 4(a)(2)	     Review of Legislation and Regulations 	                                                10, 35

Section 5(a)(1)	     Significant Problems, Abuses, and Deficiencies 	                                        11-28

Section 5(a)(2) 	    Recommendations for Corrective Action to Significant Problems 	                         11-28

Section 5(a)(3) 	    Previous Reports’ Recommendations for Which Corrective Action
	                    Has Not Been Completed	                                                                 17-18

Section 5(a)(4) 	    Matters Referred to Prosecutive Authorities 	                                           19-24

Section 5(a)(5) 	    Information or Assistance Refused or Not Provided 	                                        34

Section 5(a)(6) 	    Audit Reports Issued in This Reporting Period 	                                            33

Section 5(a)(7)	     Summary of Significant Reports 	                                                        11-28
Section 5(a)(8)	     Audit Reports with Questioned Costs 	                                               12-14, 17

Section 5(a)(9) 	    Audit Reports with Recommendations That Funds Be Put to Better Use 	      12, 16-17, 31, 26-27

Section 5(a)(10) 	   Previous Audit Reports Issued with No Management Decision Made by
	                    End of This Reporting Period	                                                           11-18

Section 5(a)(11) 	   Significant Revised Management Decisions 	                                11-15, 16-18, 26-28

Section 5(a)(12) 	   Significant Management Decisions with Which the OIG is in Disagreement	                    14




                                                                                                                          Office of
                                                                                                                      Inspector General
                                                                                                                             37
                                                                                                             Tell Us About It


Stop Fraud, Waste, Mismanagement, and Abuse
Who pays? You pay. Act like it’s your money…it is!

Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak. Amtrak’s Office of
Inspector General has a toll free hotline number for you to call. You can write to the OIG.
The OIG will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from
reprisal by your employer.


Call the hotline:
Nationwide (800) 468-5469
Philadelphia (215) 349-3065 or ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654
     National Railroad Passenger Corporation
                 Office of Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285


               Amtrak is a registered service mark of the
               National Railroad Passenger Corporation.
